<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2009 BUDGET REQUEST FOR ARMY CORPS OF ENGINEERS AND ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   THE PRESIDENT'S FISCAL YEAR 2009 BUDGET REQUEST FOR ARMY CORPS OF 
             ENGINEERS AND ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                (110-95)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                   U.S. GOVERNMENT PRINTING OFFICE
40-695 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York               VACANCY
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              WAYNE T. GILCHREST, Maryland
DORIS O. MATSUI, California          VERNON J. EHLERS, Michigan
JERRY F. COSTELLO, Illinois          FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York          GARY G. MILLER, California
BRIAN HIGGINS, New York              ROBIN HAYES, North Carolina
RUSS CARNAHAN, Missouri              HENRY E. BROWN, Jr., South 
JOHN T. SALAZAR, Colorado            Carolina
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
HEATH SHULER, North Carolina         BILL SHUSTER, Pennsylvania
HARRY E. MITCHELL, Arizaon           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York               CONNIE MACK, Florida
STEVE KAGEN, Wisconsin               JOHN R. `RANDY' KUHL, Jr., New 
JERRY MCNERNEY, California, Vice     York
Chair                                CHARLES W. BOUSTANY, Jr., 
ELEANOR HOLMES NORTON, District of   Louisiana
Columbia                             JEAN SCHMIDT, Ohio
BOB FILNER, California               CANDICE S. MILLER, Michigan
ELLEN O. TAUSCHER, California        THELMA D. DRAKE, Virginia
MICHAEL E. CAPUANO, Massachusetts    JOHN L. MICA, Florida
GRACE F. NAPOLITANO, California        (Ex Officio)
MICHAEL A ARCURI, New York           VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bodine, Hon. Susan Parker, Assistant Administrator for Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency.........................................................     9
Grumbles, Hon. Benjamin H., Assistant Administrator for Water, 
  U.S. Environmental Protection Agency...........................     9
Van Antwerp, Lieutenant General Robert, Chief of Engineers, U.S. 
  Army Corps of Engineers........................................     9
Woodley, Jr., Hon. John Paul, Assistant Secretary of the Army For 
  Civil Works, Department of the Army............................     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    39
Costello, Hon. Jerry F., of Illinois.............................    40
Duncan, Hon. John J., of Tennessee...............................    43
Salazar, Hon. John T., of Colorado...............................    50

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bodine, Hon. Susan Parker........................................    53
Grumbles, Hon. Benjamin H........................................    70
Van Antwerp, Lieutenant General Robert...........................    80
Woodley, Jr., Hon. John Paul.....................................    86

                       SUBMISSIONS FOR THE RECORD

United States Environmental Protection Agency:

  Responses to questions from Rep. Mitchell......................    59
  Responses to questions from Rep. Oberstar......................    62
  Responses to questions from the Subcommittee...................    65
Woodley, Jr., Hon. John Paul, Assistant Secretary of the Army For 
  Civil Works, Department of the Army, responses to questions 
  from the Subcommittee..........................................   104

[GRAPHIC] [TIFF OMITTED] T0695.001

[GRAPHIC] [TIFF OMITTED] T0695.002

[GRAPHIC] [TIFF OMITTED] T0695.003

[GRAPHIC] [TIFF OMITTED] T0695.004

[GRAPHIC] [TIFF OMITTED] T0695.005

[GRAPHIC] [TIFF OMITTED] T0695.006

[GRAPHIC] [TIFF OMITTED] T0695.007

[GRAPHIC] [TIFF OMITTED] T0695.008



  HEARING ON THE PRESIDENT'S FISCAL YEAR 2009 BUDGET REQUEST FOR ARMY 
         CORPS OF ENGINEERS AND ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                       Thursday, February 7, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. The Committee will come to order.
    I would like to welcome our witnesses from EPA and the 
Corps. From the EPA, Assistant Administrator Benjamin Grumbles 
and Susan Bodine will testify. I would like to welcome John 
Paul Woodley, Assistant Secretary of the Army for Civil Works 
and Lieutenant General Robert Van Antwerp, Chief of Engineers 
for the Corps of Engineers.
    As is becoming more and more apparent, the Nation is in 
economic distress, and yet the President's budget cuts programs 
and projects that put Americans to work on projects that will 
benefit Americans. Enhanced funding of EPA water infrastructure 
and Corps projects provide direct benefits to the economy while 
at the same time supporting the Nation's priorities of enhanced 
human health and safety and environmental restoration and 
protection.
    Simply put, this budget is not adequate to meet the 
Nation's needs. The Administration fails to recognize that 
continued investment in water-related infrastructure is a key 
element for stimulating and improving the U.S. economy, an 
economy built on the investments of our predecessors.
    States and local communities have warned that reduced 
funding for wastewater infrastructure programs make it 
difficult to respond to failing wastewater infrastructure and 
can force the delay of essential upgrades to improve water 
quality.
    The President's budget for the Clean Water State Revolving 
Fund program does nothing to reassure the public on this front. 
Given the needs of communities, rich and poor, to deal with 
toxic, hazardous waste sites, the Superfund budget does little 
more to address their concerns. Since this Administration came 
into office, the President's budget has almost halved the 
annual number of Superfund cleanups achieved by the Clinton 
Administration.
    Unfortunately, the Army Corps of Engineers does not fare 
any better in this proposed budget. It continues cuts that 
affect the ability of the agency to carry out its mission.
    The budget also fails to fund any of the important projects 
that were authorized by the WRDA 2007 bill which passed with 
overwhelmingly bipartisan support. For example, in my own 
district, the President's budget fails to adequately fund the 
recently authorized Dallas Floodway Extension Project.
    This flood control project along the Trinity River provides 
critical flood protection for downtown Dallas and the 
neighborhoods of Oak Cliff and West Dallas, raising the level 
of flood protection and protecting the lives and livelihood of 
some 12,500 homes and businesses in Dallas. The city estimates 
that this project will prevent an excess of $8 billion in flood 
damages and provides additional recreational opportunities for 
those visiting the Dallas metropolitan area.
    I am certain that every Member of this Committee could 
identify similar important projects that are targeted for 
elimination or reduction in this budget.
    I am also concerned about the impact of this budget on the 
Corps' ability to vital operations and maintenance activities 
for both navigation and flood control projects. The passage of 
time has taken a toll and has created the real possibility of 
catastrophic failure of essential transportation linkages or 
flood protection projects. As the Nation learned in the 
aftermath of Hurricanes Katrina and Rita, poorly constructed or 
maintain flood control structures can result in tremendous 
economic and personal hardship and loss of life.
    This budget forces the Corps to do more with less money. It 
bets the continued reliability of our infrastructure on the 
hope that it will hold together for just a few more years. We 
cannot under-invest in the Nation's infrastructure or its 
environment. We have an obligation to future generations to 
provide a cleaner, safer and more secure world for them to 
live.
    I welcome our witnesses here, and I look forward to today's 
testimony.
    I now recognize Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    I am filling in once again until a new Ranking Member is 
named in place of Mr. Baker, and I certainly am familiar with 
the importance of the Trinity River project to your district 
because you had me down there when I chaired this Subcommittee.
    Let me begin by saying that I support the President's 
efforts to control Federal spending. However, the agency 
programs that we are examining today are truly investments in 
America. These are important programs that benefit our economy 
and improve the quality of life for our citizens.
    While I believe we must be diligent in our oversight of 
these agencies to be sure that programs are run effectively and 
efficiently, I do not support cutting programs that have a 
proven record of providing economic benefits. In fact, as part 
of the economic stimulus program, we should increase our 
investment in programs such as those that both produce jobs, 
American jobs, and deliver economic benefits.
    The Administration's budget for fiscal year 2009 continues 
a trend of under-investing in our water resources. As a result, 
the general condition of our flood protection and navigation 
infrastructure has declined. Investing in flood damage 
reduction projects protects the people and businesses in cities 
and towns all over the Nation. It makes good economic sense to 
protect existing development rather than have to pay for the 
losses and cleanup that come from hurricanes or floods.
    In the global economy, the Nation's farmers and businesses 
must compete with their counterparts overseas for customers all 
over the world. The importance of modern waterways and ports 
has never been more critical to the Nation's economic well 
being as it is right now.
    Yet, the Administration's budget cuts the Corps of 
Engineers' construction budget by nearly $900 million compared 
what it was enacted for fiscal year 2008. If we follow this 
lead, projects will take longer to complete and cost more and 
have the benefits delayed.
    In addition, the budget cuts funds for feasibility studies 
by 46 percent compared to what Congress appropriated this year. 
These studies are necessary to produce the modern and 
beneficial projects that we need in the future.
    There is very little from previous budget requests for the 
Corps' operations and maintenance account. After many years of 
inadequate funding resulting in deferred maintenance, the 
funding level is still too low.
    The chronic problem of deferred maintenance is impacting 
the navigability of many of our waterways and causing ships to 
leave certain ports only partially loaded or, in some cases, to 
divert to foreign ports. This has a huge impact on the 
reliability of this important mode of transportation.
    In the Environmental Protection Agency's budget, those of 
us on this Committee are disappointed that the Administration 
continues to inadequately fund the Clean Water State Revolving 
Fund program. This is a highly effective and very important 
program.
    The Superfund and brownfields programs are budgeted at a 
flat rate compared to previous funding levels. These are 
important programs that make contaminated areas fit for 
redevelopment. Many of the smaller and easier cleanup projects 
have already been done, so the remaining work tends to be more 
complex and more expensive to complete. We will have to invest 
more in these programs if we want to release properties for 
redevelopment at the same pace. Those are general comments.
    Two or three things more specific that I am interested in: 
It is my understanding the Corps is now conducting a study that 
compares different projects and how they have been completed. I 
am told that the study is called the Good, Bad and the Ugly, 
and this sounds like a very worthwhile effort to me. I suspect 
that my colleagues on this Committee, as well as other 
Committees, will be very interested in the results of this 
study, and I would like to hear the status of that.
    In addition to that, the Olmsted Locks and Dams project on 
the Ohio River was authorized by Congress in WRDA 1988 at an 
estimated construction cost of $775 million. Its construction 
began in 1991 and was supposed to have been completed years 
ago.
    Today, so far, we have spent $900 million on the project. 
It is now estimated completion cost is just under $2 billion, 
and its completion date is now sometime in 2015. I think the 
Subcommittee should receive a report on that.
    Finally, for more than 30 years, the Corps budget has 
identified project specific amounts in the operations and 
maintenance portion of the Corps budget.
    This year in the fiscal year 2009 proposed budget for the 
Corps' civil works program, for the first time, this program is 
divided into O&M funding, into 54 river subsystems without 
providing the project specific amount for the individual 
projects within each subsystem. I think we need to know about 
that as well.
    With those comments, I yield back the balance of my time.
    Ms. Johnson. Thank you, Mr. Duncan.
    The Chair now recognizes Mr. Mitchell.
    Mr. Mitchell. Thank you, Madam Chair.
    Today, we are examining the President's budget request for 
the EPA Superfund program, a program that has been very much on 
the minds of my constituents of late. They, like me, are 
concerned about the North Indian Bend Wash Superfund site in 
Scottsdale which last month experienced a terrible failure.
    On January 16th, without warning, residents were confronted 
with a three-day tap water ban. Worse, as water customers began 
lining up for bottled water and our local businesses began 
scrambling for ice, we learned that for as much as 16 to 24 
hours prior to the implementation of the tap water ban, 
residents had been exposed to water containing more than 4 
times the permissible concentration of trichloroethylene or 
TCE, a suspected cancer-causing chemical.
    Investigations are ongoing, but it appears, at least 
initially, that a mechanical failure at the Miller Road water 
treatment facility is at least partially responsible. Alarming, 
this is the same facility that was found to have emitted 
impermissibly high levels of TCE for a period of eight days in 
October.
    When news of the October TCE incident became public, which 
frankly is a whole disturbing story in itself, I asked the EPA 
to find out what was going on at that facility. I was assured 
and reassured, both by letter and by phone, that steps were 
being taken to guard against TCE emissions at Miller Road. 
However, when I turned on the local news a couple weeks later, 
there was the same plant, only this time it was having a bigger 
TCE emission problem.
    And so, I come here today with a lot of questions for the 
EPA, questions about why a plant that had already experienced 
TCE emission problems wasn't fixed, about why a machine 
responsible for protecting the public from TCE emissions was 
left unattended and why no one discovered the machine had 
failed for up to 16 hours, about why the reverse 911 system 
activated by the water company to notify customers about the 
tap water ban failed to reach so many of the company's 
customers and why the system relied on an estimation of 
customer contact information instead of the actual customer 
contact information the company had on file.
    I believe my constituents are entitled to some answers, and 
I hope we can get at least some of them here today.
    Thank you, Madam Chair, and I yield back the rest of my 
time.
    Ms. Johnson. Thank you very much.
    Ms. Matsui.
    Ms. Matsui. Thank you, Madam Chair.
    I want to thank the panel for being here today. You are 
doing very important work throughout the Country and especially 
in my district of Sacramento. As you all know, Sacramento has 
significant flood issues. I know the President recognizes the 
flood concern in the capital of California as well.
    Since coming to Congress, I have fought aggressively to 
bring vital Federal funding to my district to ensure that my 
constituents are protected. Unfortunately, while the President 
has recognized the need for flood mitigation efforts, the 
Administration has not provided the funds that we need to 
ensure these efforts are realized.
    As a result, States like California often front the funding 
on flood projects. This is certainly the case in the Sacramento 
region where State and local flood control organizations are 
aggressively pursuing needed project improvements.
    I feel that the Country needs to update the current funding 
process to encourage States and locals to move quickly to 
protect our constituents. They should not question whether the 
Federal Government will support their efforts to move quickly 
to build necessary and oftentimes vital projects. I hope the 
Administration will be there to provide the necessary support 
to our local and State Governments.
    We have been working most recently in the Sacramento region 
on the joint Federal project and funding for the watershed. I 
know that the Administration has taken note of these projects, 
and I look forward to talking about them with you today.
    Another issue that I am sure you are aware of is in the 
Natomas Region in Sacramento. Last week, the Army Corps of 
Engineers and FEMA received a copy of the letter that Chairman 
Oberstar, Subcommittee Chairwoman Norton and I sent. The letter 
announced an upcoming hearing on the Corps' levee certification 
and FEMA's flood zone designation processes.
    We can all agree that with flood protection, the public 
safety always comes first. With that in mind, I am supportive 
of exploring additional ways to fast-track the locals' already 
aggressively construction schedule for the Natomas Basin and 
would expect that the Federal Government would provide the 
necessary assistance.
    Next week, I want to hear how the Corps and FEMA procedures 
are changing and how they expect to implement these changes in 
the future in my district and throughout the Country.
    Once again, I thank you all for being here. I look forward 
to discussing the Corps' budget priorities.
    I yield back the balance of my time. Thank you.
    Ms. Johnson. Thank you.
    Dr. Boustany.
    Mr. Boustany. Thank you, Madam Chairman.
    After Hurricane Rita, I was able to get authorized and 
appropriated monies for the first ever hurricane and flood 
protection study in southwest Louisiana, and I have worked 
closely with the New Orleans Corps Office to move forward on 
this project. The reconnaissance study was completed, I believe 
this past May, and the project has moved to feasibility. I was 
able to secure additional money in the fiscal year 2008 budget 
in the omnibus bill to make sure that the project doesn't 
stall.
    In addition, Congress directed the Corps to expedite 
completion of the feasibility aspect of this in WRDA, and yet 
the President's budget proposes no funding for the southwest 
Louisiana ongoing study in fiscal year 2009. So I hope to hear 
from you two gentlemen on this issue as we hear your testimony 
and get into the questions.
    Additionally, the Louisiana delegation has worked to secure 
authorization for the Morganza to Gulf Hurricane Project in 
WRDA. We have worked with the Corps to make sure that WRDA 
contained adequate language to enable the Corps to move swiftly 
forward on this project, and there is some concern now that 
despite this hard-fought authorization there are additional 
hurdles that will stall the project. And so, I hope again this 
can be addressed.
    Then, finally, in the operations and maintenance part of 
the budget, I have a little concern about the dredging funds 
for the Calcasieu ship channel which is very important as we 
look at the import of liquified natural gas into this Country. 
This ship channel is critically important. It is going to be 
the point of inflow for liquified natural gas into the Country.
    So I see that keeping this channel dredged is of strategic 
importance, not just for Louisiana but for the Country, and so 
I hope we can perhaps have some discussion on this as well.
    I thank you all for being here and look forward to the 
testimony.
    I yield back.
    Ms. Johnson. Thank you very much.
    Mr. Bishop.
    Mr. Bishop. Thank you, Madam Chair. I want to thank you for 
holding this hearing.
    I also would like to thank today's panelists for appearing 
before us, and I want to express my appreciation for their 
efforts on behalf of their agencies. I particularly want to 
express my appreciation to the Army Corps of Engineers for the 
really inspired work that they do in my district and how 
responsive they have been to many of the issues that we have 
raised with the Corps.
    However, let me say that once again I am distressed to see 
that the President's budget proposals sacrifice the long term 
health of our environment and the protection of our coastal 
communities for short term and essentially insignificant 
reductions in our deficit. The Administration's continuing 
retreat from the protection of our environmental resources 
under the pretense of expanding economic growth is very 
distressing and essentially an eight-year pattern.
    I think we can all agree that the economy is ailing, but as 
someone who represents over 300 miles of coastline and numerous 
communities that depend on tourism and a pristine local 
environment, I find it difficult to see a correlation between 
damaging our shoreline and growing the economy.
    For 2009, the Administration's budget cuts EPA funding by 
4.4 percent from the 2008 enacted levels. Much of this decrease 
is attributed to large cuts on grants to States.
    The budget cuts heavily the EPA Clean Water State Revolving 
Fund, a 19.4 percent reduction from this year's enacted budget 
and an astounding 58.8 percent reduction since President Bush 
took office. These cuts directly affect my constituents on Long 
Island and constituents all over the Country by preventing 
much-needed improvements to wastewater infrastructure.
    Sadly, it seems as if the President is determined to leave 
as his legacy nearly a decade of misguided environmental 
policies, and so I look forward to hearing from the panelists, 
how we can best make sense of what has been proposed and how we 
can hopefully effect it positively so that we can all truly 
protect our environment and, in my case, preserve our 
shoreline.
    I thank the Chairwoman, and I yield back the balance of my 
time.
    Ms. Johnson. Thank you very much.
    Mr. Brown.
    Mr. Brown. Thank you, Madam Chair.
    I want to thank the panel for coming in and being part of 
this process.
    The Corps supports activities of critical importance to my 
district including the Ports of Charleston and Georgetown, as 
well as the Atlantic and the coastal waterway.
    Additionally, since the First District is a coastal 
district, almost every construction project brings with it some 
concerns over wetlands. After the Corps, the EPA and the White 
House issued long awaited wetlands guidance last summer, I am 
glad to report that the Charleston district has been one of the 
most aggressive in moving to process outstanding and new 
wetlands permits. I thank you all for that.
    I do, however, have concerns over the funding level 
provided to the Corps' regulatory program in this budget and 
look forward to discussing that with our witnesses.
    Overall, I am disappointed and, unlike last year, I cannot 
praise the Administration for making the Army Corps a priority 
in this budget. Sadly, comparing requests year to year, the 
Corps' budget is reduced this year.
    While there is a lot of focus on the calculations made in 
determining which construction projects are funded, there is 
little attention paid to the maintenance needs of so many Corps 
projects that go unaddressed year after year.
    Unfortunately, under the current environment, Congress 
ensuring that the Corps has funding to maintain a lock or 
dredge in the harbor to keep ships coming in is painted in a 
bad light while the maintenance needs continue to mount with 
little or no attention from the press and public. Investments 
in these facilities are not just economic stimulus. They are 
economic security.
    I look forward to hearing from our witnesses today about 
this and many other issues facing our Nation's water 
infrastructure.
    I yield back the balance of my time and thank you, Madam 
Chair.
    Ms. Johnson. Thank you very much, Mr. Brown.
    Mr. Shuler.
    Mr. Shuler. Thank you, Madam Chair.
    As a former real estate developer, I am very familiar with 
the infrastructure requirements for a new development.
    I know firsthand how geosynthetics can support long-
lasting, newly constructed roads, waterways and improve in 
erosion sediment control. The performance of roads built with 
geosynthetics was always superior to those built without them. 
Geosynthetics are also better for the environment by improving 
drainage roadways.
    My personal experience with geosynthetics is a big reason 
why I am advocating for the expanse in use of geosynthetic 
products and materials. They will help the government and 
businesses to save money on projects of all sizes.
    In the late 1980s, the Bureau of Reclamation concluded a 
series of tests and investigations to evaluate the use of 
geosynthetic systems lining canals throughout the western 
United States. The report concluded that geosynthetics led to a 
90 percent reduction in leakage and a 50-year increase in the 
life span of canals.
    In the early 1980s, the EPA mandated the uses of HDPE 
liners as subsurface barrier layers in the Nation's landfills 
and waste storage facilities. This resulted in the American 
Society of Civil Engineers offering the highest grade given to 
areas of solid waste management in their report card of 
America's infrastructure.
    The evidence suggests that requiring the lining of canals, 
pipelines, reservoirs and dams for water conveyances with 
geosynthetic materials will improve the life spans of these 
infrastructure projects while reducing waste and saving 
taxpayers' monies.
    I hope that this Committee will strongly consider taking 
steps to promote the use of geosynthetics in the Water Resource 
Development Act of 2008.
    Madam Chair, I yield back.
    Ms. Johnson. Thank you very much.
    We will go now to our witnesses. We are pleased to have the 
distinguished panel of witnesses this afternoon, and we have 
Assistant Administrator Benjamin Grumbles from the 
Environmental Protection Agency Office of Water and the 
Assistant Administrator Susan Bodine from the EPA's Office of 
Solid Waste and Emergency Response.
    Then Assistant Secretary of the Army for Civil Works, the 
Honorable John Paul Woodley will testify following them, and 
our panel will conclude with testimony from Lieutenant General 
Robert Van Antwerp from the U.S. Corps of Engineers.
    We are pleased that all of you are here this afternoon.
    Mr. Grumbles.
    Your full statements can be placed in the record. So we 
would ask if you could limit your testimony to five minutes and 
proceed as one finishes.

  TESTIMONY OF THE HONORABLE BENJAMIN H. GRUMBLES, ASSISTANT 
ADMINISTRATOR FOR WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; 
THE HONORABLE SUSAN PARKER BODINE, ASSISTANT ADMINISTRATOR FOR 
    SOLID WASTE AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL 
   PROTECTION AGENCY; THE HONORABLE JOHN PAUL WOODLEY, JR., 
ASSISTANT SECRETARY OF THE ARMY FOR CIVIL WORKS, DEPARTMENT OF 
 THE ARMY; AND LIEUTENANT GENERAL ROBERT VAN ANTWERP, CHIEF OF 
            ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    Mr. Grumbles. Thank you, Madam Chair and Members of the 
Subcommittee. It is always an honor to appear before the 
Subcommittee and have the opportunity to discuss the 
President's fiscal year 2009 budget request as it relates to 
water programs for the U.S. EPA.
    The request constitutes $2.5 billion which is 35 percent of 
the Agency's overall budget, and the request will allow us, 
with our State, tribal and local partners, to continue to make 
progress in ensuring America's waters are clean, safe and 
secure and, above all, sustainable. The key that we are 
focusing on and continuing to emphasize in our budget request 
is sustainability, particularly with infrastructure but also on 
holistic and integrated watershed approaches.
    Infrastructure financing: Water infrastructure is a 
lifeline for community health and prosperity. EPA is committed 
to developing innovative, sustainable and market-based 
approaches and solutions for managing and financing 
infrastructure with public and private partners.
    We will continue to build on our well established Four 
Pillars of Sustainable Infrastructure, focused on improved 
asset management and management of utilities, secondly, full 
cost pricing, thirdly, water efficiency, and fourthly, an 
integrated watershed approach.
    The Clean Water State Revolving Fund program provides funds 
to capitalize state revolving loan funds. In this budget 
request, EPA will be on track to meet its total capitalization 
target of $6.8 billion for the periods from 2004 through 2011. 
At this funding level, the Clean Water SRF will provide an 
average of $3.4 billion in loans annually.
    We believe that the seed money that goes into the state 
revolving fund is a very important tool. It is not the only 
tool, and we are committed to working with you on additional 
tools and practices and revenue sources and mechanisms to 
continue to meet the infrastructure needs.
    The drinking water infrastructure funds, the SRF, the 
Administration is requesting a slight increase above what was 
enacted. It is $842 million.
    A very important, an innovative part to meeting water 
infrastructure needs is Water Enterprise Bonds. The 
Administration continues to request that Congress move on a 
Water Enterprise Bond proposal that would be to amend the tax 
code to remove the artificial cap, the barrier. It is called 
the Unified State Volume Cap on the use of public-private 
partnerships for water and wastewater infrastructure. We think 
that can lead to new money, new revenues of up to $5 billion a 
year.
    Another important component of sustainability for water is 
the WaterSense program and advancing concepts of water 
efficiency at every turn. More than 125 different models of 
high efficiency toilets and 30 bathroom faucets have earned the 
EPA label, and almost 600 manufacturers, retailers and 
utilities have joined the program.
    By promoting this easily recognizable, consistent national 
brand, EPA believes WaterSense will make water efficient 
products the clear and preferred choice among consumers, and 
this is good news for the whole Country, particularly for areas 
of the Country that are experiencing water restrictions and 
drought.
    Homeland security is a theme that continues to be a high 
priority for the Administration, and it remains that in this 
budget request. EPA is seeking over $35 million for 
strengthening the Nation's water and wastewater infrastructure 
systems. Primarily, that focuses on drinking water, but it also 
involves partnerships with wastewater utilities.
    For wetlands, one of the Nation's most critical natural 
resources, a part of our natural heritage, we are seeking $39 
million in this budget request. That is to carry out our 
regulatory responsibilities and also advance the President's 
vision of cooperative conservation through stewardship so that 
we can meet the overall gain of wetlands goal that the 
President has articulated.
    Two key activities will be implementing the 2006 decision 
of the Supreme Court in Rapanos and working with our Federal 
agency partners to accelerate the completion of the digital 
wetlands data layer in the National Spatial Data Inventory. 
What this means is working with the Fish and Wildlife Service 
and other agencies. We are all making progress to have better 
maps, more accurate maps, more comprehensive maps for wetlands 
across the Country.
    Watershed protection is a theme and a priority that runs 
throughout the budget and the U.S. EPA strategic plan. We 
launched a green infrastructure strategy in January of this 
year to reduce sewer overflows and stormwater runoff, and we 
look forward to working with the Committee and others to 
advance this strategy that emphasizes not just the gray 
infrastructure but the green infrastructure to control 
overflows and manage stormwater.
    For the Great Lakes, a unique and extraordinary resource, 
the agency is requesting $57 million. Thirty-five of that is 
for the Great Lakes Legacy Act to clean up contaminated 
sediments. It is a very important part of our budget and a 
priority as the Interagency Taskforce.
    For the Chesapeake Bay, we are requesting $29 million. We 
are committed to accelerating restoration of the bay's aquatic 
habitat and achieving the pollution reduction targets for 2010.
    For the Gulf of Mexico, the agency is requesting $4.5 
million. We will continue to support efforts with the States in 
the Gulf Region to reduce nutrient loadings to watersheds and 
reduce the size of the hypoxic zone by identifying the top 100 
nutrient-contributing watersheds in the entire Mississippi 
River Basin and using a computer mode to determine where the 
major sources of nitrogen and phosphorus are located and where 
to target reduction efforts.
    Madam Chair, in conclusion, I would say that we appreciate 
the opportunity to highlight key components of the budget 
request.
    Water is a public trust, and EPA's Office of Water takes 
this responsibility very seriously. We are committed to working 
with you on not only sustaining the core programs under the 
Clean Water Act but also on developing innovative tools and 
approaches to meet the needs of the 21st Century.
    Thank you.
    Ms. Johnson. Thank you very much.
    Ms. Bodine.
    Ms. Bodine. Thank you, Madam Chair and Members of the 
Subcommittee. I, too, would like to say that it is a pleasure 
to be back here in 2167 Rayburn. I have spent a lot of hours 
here.
    I am very pleased to appear before the Subcommittee to talk 
about the President's fiscal year 2009 request for the 
brownfields and Superfund programs as well as other programs 
that fall within this Subcommittee's jurisdiction.
    The President's fiscal year 2009 budget request provides 
the necessary funds for EPA to carry out our mission 
efficiently and effectively, to protect human health and 
safeguard the environment. This budget request continues strong 
support for the brownfields program. It maintains funding for 
further progress in cleaning up Superfund sites and continues 
an emphasis on homeland security and emergency response 
efforts.
    The President's budget requests $165.7 million for the 
brownfields program. Of that amount, $93.6 million is for 
assessment, revolving loan fund and cleanup grants. It is 
estimated that with the 2009 funding, that we will produce 
1,000 brownfields property assessments, clean up 60 properties, 
leverage 5,000 jobs and leverage $900 million in cleanup and 
redevelopment funding.
    EPA will continue its land revitalization efforts which cut 
across all of our cleanup programs as well as working with 
partners in all levels of government and the private sector and 
nonprofit sectors. The goal of land revitalization is to 
restore our Nation's contaminated land resources so that will 
allow Americans' communities to safely return these properties 
to productive use.
    In addition, by incorporating green and sustainable 
approaches into our brownfields redevelopment program, we can 
further increase the environmental benefits from land 
revitalization.
    Now I know that in today's tight budget climate, EPA faces 
challenges. Our Superfund program continues to address large, 
complex sites, but I want to assure you we are managing that 
challenge. The President's request of $1.264 billion for the 
Superfund program maintains steady funding for cleanup.
    We also have other sources of funding in addition to 
current year appropriations. Through aggressive management of 
our contracts, since 2001, we have been able to de-obligate 
more than $840 million of excess funding that was in closed out 
contracts.
    Through our enforcement efforts, we have been able to 
collect settlement dollars from responsible parties that is 
used toward site cleanup. In fiscal year 2007, we received 
commitments from responsible parties to provide over a billion 
dollars worth of cleanup work and funding.
    As you know, when we settle with responsible parties, we 
can settle either for work or for cash, and when we settle for 
cash we put that funding into special accounts. We currently 
have more than one billion dollars in special accounts that are 
dedicated toward cleanup of specific sites.
    At the end of fiscal year 2007, cleanup construction had 
been completed at 1,030 Superfund sites. That is 66 percent of 
the National Priorities List. Building upon the 24 sites where 
construction was completed in 2007, the 30 that we expect to 
complete in 2008 and the 35 that are our goal for 2009, we are 
on track to meet the target in our strategic plan.
    Construction completion is one way of assessing Superfund 
program progress. It was developed about a decade ago as a 
measure of interim progress. But it is important for you to 
understand that it is not a measure of long term protection.
    To better address long term protection, in 2007, we adopted 
a new measure called Site-Wide Ready for Anticipated Use, and 
this is a measure of progress after construction is complete. 
To be ready for anticipated use, all of the cleanup levels for 
productive use of the land have to be met and all of the 
institutional controls that ensure that the land is used safely 
into the future have to be in place.
    Last year, we had a goal of 30 sites. It was the first year 
we had that measure in place. We achieved 64. The goal is still 
30 for 2008 and 2009. In the future, though, as we make 
progress in this, I expect that we will adjust that goal to 
raise it higher. Obviously, it has been very successful.
    But I want to stress the importance of this measure 
because, without it, we didn't have a measure to ensure that 
all the institutional controls are in place that are part of 
the remedy, because they are a part of the remedy that get STET 
implemented after construction is complete.
    The President's budget request will also fund our removal 
and emergency response programs. To date, EPA has completed 
more than 9,700 removals at hazardous waste sites, and those 
removals address immediate threats to human health and the 
environment.
    The budget request also includes $55.8 million for the 
Homeland Security Emergency Preparedness and Response program.
    Now that request is $12 million above the fiscal year 2008 
request, and I want to explain that those additional resources 
are going to strengthen EPA's ability to respond to multiple 
incidents of national significance that might occur. We expect 
that if something happens, if a terrorist act happens, it is 
probably not going to be just one. It will probably be multiple 
incidents.
    So, we are seeking that funding to expand our laboratory 
capacity, including additional mobile labs. We want to provide 
for additional training and exercises and additional equipment 
including a second airplane that we use for aerial monitoring 
to detect releases.
    In addition, our 2009 budget requests funds for our oil 
spill program at $13.9 million. Now this program focuses on 
preventing oil spills, reducing risk to people and the 
environment, and responding to oil spills. Every year, EPA 
evaluates thousands of spills to determine if Federal 
assistance is required, and we manage actions to oversee 
private party response at about 250 to 300 sites per year.
    That concludes my statement, and I would be happy to answer 
any questions.
    Ms. Johnson. Thank you very much.
    Assistant Secretary Woodley.
    Mr. Woodley. Madam Chairwoman, distinguished Members of the 
Committee, thank you for the opportunity to appear before you 
today with General Van Antwerp, the 52nd Chief of Engineers, to 
present the President's fiscal year 2009 budget for the Civil 
Works Program in the Army Corps of Engineers.
    The Civil Works budget provides funding for development and 
restoration of the Nation's water and related resources 
primarily within the three main program areas of commercial 
navigation, flood and coastal storm damage reduction and 
aquatic ecosystem restoration.
    The budget also supports hydropower, recreation, 
environmental stewardship and water supply storage at existing 
Corps projects.
    Finally, the Civil Works budget provides for protection of 
waters and wetlands, cleanup of sites contaminated as a result 
of the Nation's efforts to develop atomic weapons and emergency 
preparedness.
    The budget for the fiscal year 2009 annual Civil Works 
program is $4.74 billion. In addition, the President's budget 
requests $5.761 billion in fiscal year 2009 emergency 
appropriations for the Federal share of the additional funds 
needed to reduce the risk to the greater New Orleans, Louisiana 
area from storm surge that have a 1 percent annual chance of 
reoccurring.
    The fiscal year 2009 budget includes $1 million in the 
Investigations account for independent peer review requirements 
of Section 2034 of the Water Resources Development Act of 2007. 
The Investigations account also includes $2 million for a high 
priority study, authorized by Section 2032(b) of the Water 
Resources Development Act of 2007, of the vulnerability of the 
U.S. to damage from flooding.
    The budget again proposes performance criteria to allocate 
funds among construction projects. These criteria give priority 
for funding to the projects that yield the greatest returns to 
the Nation based upon objective performance criteria.
    The budget allocates funding among ongoing construction 
projects based primarily on benefit to cost ratio. Priority is 
also accorded to projects that reduce significant risk to human 
safety and to dam safety assurance, seepage control and static 
instability correction projects.
    For operations and maintenance of Civil Works projects, the 
fiscal year 2009 budget provides nearly $2.6 billion in the O&M 
account and $163 million in the Mississippi River and 
Tributaries account. The total is $16 million higher than the 
fiscal year 2008 budget for comparable activities which, by the 
way, in turn, provided a substantial increase itself over prior 
years' O&M levels.
    The budget provides $729 million to be appropriated from 
the Harbor Maintenance Trust Fund for operations and 
maintenance of commercial navigation channels and harbors. The 
growth of the trust fund balance and ways to address this 
balance are being discussed within the Administration. We will 
continue to work within the Administration to develop policies 
to effectively use the Harbor Maintenance Trust Fund.
    Like the budgets of the past two years, the fiscal year 
2009 budget proposes to allocate operations and maintenance 
funding on a regional basis. The budget proposes to allocate 
operations and maintenance funding among 54 areas based on the 
USGS subwatersheds. This approach will improve the overall 
performance of Civil Works assets because managers in the field 
will be better able to properly maintain key infrastructure, 
adapt to uncertainties and address emergencies and other 
changed conditions over the course of the fiscal year.
    As anticipated at this time last year, the fiscal year 2009 
budget is based on enactment of proposed legislation to 
establish a lockage-based barge user fee and to phase out the 
existing fuel tax. The proposed legislation will be transmitted 
to Congress after the Executive Branch interagency review of 
the proposal is completed.
    Prompt enactment of such legislation is needed to address a 
declining balance in the Inland Waterways Trust Fund which 
otherwise will run out of funds around the end of the 2008 
calendar year and to support ongoing and future inland waterway 
projects.
    The budget provides $185 million for the Corps of Engineers 
share of the South Florida Everglades Ecosystem Restoration 
program which is the most ever budgeted or appropriated for the 
Corps in one year for these activities. This level of funding 
for the Corps is an increase of $54 million or 41 percent 
compared to the fiscal year 2008 enacted level.
    The budget also includes $20 million for the Louisiana 
coastal restoration effort including $10 for its important 
science program.
    The budget provides $180 million for the Corps Regulatory 
Program to protect wetlands and other waters of the United 
States. This is the same amount as in the budget and 
appropriations for fiscal year 2008 and represents a $55 
million increase since 2001.
    The fiscal year 2009 budget proposes to authorize the New 
Orleans Area Hurricane and Storm Damage Risk Reduction System 
to be constructed with the State of Louisiana as the single 
non-Federal cost-sharing partner and subsequently maintained 
and operated by the State.
    Pre-Katrina, risk reduction for the greater New Orleans 
area was built as a collection of separately authorized 
projects, designed with differing standards, subject to 
differing requirements for non-Federal cost-sharing and managed 
by different local entities.
    Based on statutory language proposed in the budget, the 
non-Federal sponsor would provide $1.5 billion for the non-
Federal share of this work. The New Orleans area system will be 
not only higher but also stronger than the pre-Hurricane 
Katrina system.
    Upon passage of the Water Resources Development Act of 
2007, Madam Chairman, the Chief of Engineers and I established 
a joint team to oversee its implementation. I meet biweekly 
with this joint WRDA implementation team to establish policy, 
issue implementing guidance and assess progress.
    Priority for implementation guidance is being given to 
national policy provisions, most of which are in Title II, and 
to those project and program provisions for which funds are 
currently appropriated.
    In summary, Madam Chairman, this budget does not include 
funding for all the good things the Corps of Engineers Civil 
Works program could do in fiscal year 2009. However, at $4.74 
billion, it does provide the resources the Civil Works program 
needs to pursue investments that will yield very good returns 
for the Nation in the future.
    This is the last time I will have the opportunity to appear 
before the Subcommittee to present the Army Civil Works budget 
on behalf of President Bush.
    I would be remiss if I didn't especially thank the 
Chairwoman and the Members for their many courtesies during my 
tenure and especially for your courtesy in forgiving me last 
year for not appearing because of my inability to get out of my 
neighborhood because of the inclement weather. I am delighted 
that my principal deputy, Mr. Dunlop, was able to appear in my 
stead, but I would like to especially mention that as something 
that I appreciate the Committee having done for me.
    Perhaps this is the least of the many, many courtesies and 
many opportunities I have had to learn from each of you, to 
visit with many of you in your districts and in your offices 
and to learn to appreciate the very significant water resource 
needs of the Nation that you are responsible for authorizing.
    Ms. Johnson. Thank you so very much. Don't celebrate yet. 
We might criticize you before you leave.
    [Laughter.]
    Ms. Johnson. Lieutenant General Robert Van Antwerp.
    General Van Antwerp. Thank you, Madam Chair.
    It is my honor to appear before you and Members of the 
Subcommittee. This is my first time before this Committee. I 
was appointed in May of last year, and I look forward to 
building and growing relationships with this Committee and 
working with you over time.
    I am committed to at least four years. So, while this might 
be Mr. Woodley's last, this is my first, and I look forward to 
a long association.
    It was a real busy year in 2007. We have a military 
program, and that isn't what this is about, but it is the 
largest we have ever had since World War II. We are growing the 
Army. We are restationing the Army. We are doing base 
realignment and closure, and it is an awesome thing to see out 
there at our installations, many of which are in your 
districts.
    As part of that business, Civil Works completed over 10 
navigation projects last year that we are very proud of, 
restored over 5,000 acres of wetlands ecosystem restoration, 
dredged 175 channels in some of our Nation's biggest ports, 
going to 50 feet to really enhance the economy of this Country.
    We had 368 million visitor days out to our 4,490 parks and 
recreation areas, a place where we really are able to touch the 
American people.
    We supported FEMA in response to 10 national emergencies, 
and I am glad to report that none of those were hurricanes that 
hit southeast Louisiana. We were thankful because that is the 
one thing we don't need now as we are in the restoration 
process.
    We processed over 87,000 permits, a big load and a 
challenge for us.
    We instituted several initiatives to improve our cost 
estimates, and one was covered in WRDA. It is in the 2009 
budget. That is for independent review. We think it is very 
important. We are doing both external and internal independent 
review to make sure that we get our project recommendations 
right.
    This fiscal year 2009 budget is performance-based, focusing 
on the highest economic and environmental returns. That is how 
we stacked up 79 projects for construction, 11 dam safety, 16 
life safety, 52 ongoing and completing 12 projects in 2009.
    We have learned a lot of lessons from the Gulf that have 
helped the whole Country, that have helped in levees and other 
things in California and other places. I think this is 
important to the Country. It would be a crime to have gone 
through that and not have gotten better as a result. So that is 
what we are committed to.
    Life cycle management, inspections, the Good, Bad and the 
Ugly that was discussed here is really our project review and 
program assessment that we intend to report out this summer.
    I want to just mention as you look behind me here, many 
members in uniform, the Army Corps of Engineers is an 
expeditionary force. What you can't see are members in civilian 
clothes here that have also deployed, many of them behind me. 
Today, we have 800 members of the Corps of Engineers, mostly 
civilians, deployed in Iraq and Afghanistan, 4 districts doing 
4,300 projects and making our Nation proud and I would say 
giving both those countries a start.
    It is our commitment in the Corps for continuous 
improvement, and we count on you and accept what you say and 
work with you to make sure that happens. We want to deliver 
quality. We are absolutely committed to teamwork with our cost-
sharing partners in your districts and good stewardship of 
every dollar that is appropriated.
    This concludes my statement. I look forward to your 
questions. Thank you, Madam Chair.
    Ms. Johnson. Thank you very much, General.
    We will now hear questions from the Subcommittee for the 
panel.
    Mr. Boustany, do you want to begin?
    Mr. Boustany. Thank you, Madam Chairman.
    Before I yield to Mr. LoBiondo because he has a meeting to 
attend to, I just want to say thank you all for begin here 
today. I want to particularly thank Secretary Woodley for his 
service. It has been a very challenging time on the Gulf Coast 
for us all, and, General Van Antwerp, I am glad that you are up 
to the challenge.
    So with that, I will yield to Mr. LoBiondo and then follow 
up later with questions.
    Mr. LoBiondo. I thank my colleague very much and, Madam 
Chair, thank you for holding this important hearing. I 
appreciate our panel being here today.
    General, let me tell you that in my involvement with the 
Corps over the years, I can't find the right vocabulary to say 
what a great job your folks are doing, continue to do with 
energy, enthusiasm, focus, cost in mind. Everything that we 
would want and expect, I have seen at least in my district, 
above and beyond the call of duty, not just once but time and 
time and time again. They deserve a great big thank you, and we 
owe them a debt of gratitude for the outstanding job they were 
doing.
    But having said that, Secretary Woodley, I am just 
absolutely astonished. It is just totally unbelievable to me, 
and I am outraged that OMB continues to zero out these 
projects.
    It is my understanding that Federal law dictates the policy 
of the United States to promote beach nourishment and periodic 
beach replenishment, and these are projects that are fully 
vetted by Congress. The project agreements have been signed 
with the local sponsors to share the costs. All of the Ts were 
crossed and Is were dotted. They are cost-effective, and yet we 
continue to receive zero dollars.
    I can't believe how shortsighted OMB can be in 
understanding the math that if we have a hurricane or a 
disaster along our coast, you are willing to come in with 
Federal Government resources and hundreds of millions or 
billions of dollars, but yet we are denied the ability to 
secure life and property for basically a few million dollars in 
each and every one of our communities. I just don't understand 
this rationale. It is different than the way it was when I 
first got here.
    These communities are at risk tremendously. I know in my 
district, the Second District of New Jersey, the estimates 
differ on how overdue we are for a category three, four or 
five. The law of averages at some point is going to catch up to 
this. The communities are doing everything they can to make 
sure the protections are there, first of all, for the safety of 
the residents and, secondly, for the property.
    I would just like you to help me understand how these 
decisions are made and how we are all left out of the equation.
    Mr. Woodley. Sir, thank you so much for sharing your views 
on this. This is something that has been a matter of discussion 
between the Committee and the Congress and the Administration, 
not just this Administration, but I believe administrations in 
the past.
    But the policy we are advocating is that we will support 
the project and do support numerous projects in the initial 
construction phase and that in the renourishment phase, we are 
advocating a policy under which, with certain fairly 
substantial exceptions, the renourishment phase is a local or 
State responsibility.
    I understand that there are reasonable minds that differ on 
the wisdom of that policy, but the Administration is suggesting 
that in this way we leverage our scarce Federal resources and 
that it would provide for, in the long run, a more balanced 
approach to maintaining these beach types of storm protection.
    Mr. LoBiondo. I understand. Mr. Secretary, you do 
understand you are dooming these communities just as surely as 
if the Federal formula had been flipped to 35 percent Federal 
share. You are dooming most of the communities to not being 
able to do this because they just don't have the resources. 
They can partner to do the resources.
    I think this is very shortsighted because if that disaster 
hits, you are going to be there and you are going to be there 
to the tune of a factor of hundreds of times more than it would 
be right now.
    Madam Chair, thank you very much.
    Ms. Johnson. Thank you very much.
    Mr. Mitchell.
    Mr. Mitchell. Thank you, Madam Chair, and I want to thank 
you, Assistant Administrator Grumbles and Assistant 
Administrator Bodine, for being here today.
    I will try to get through as many questions as I can, but 
since I know our time is limited I will be following up with 
you after the hearing with some additional questions in 
writing.
    As I mentioned in my opening statement, the North Indian 
Bend Wash Superfund site in Scottsdale, Arizona has had some 
serious problems of late with which the most serious problem 
has been with excess TCE emissions.
    EPA is currently conducting a full investigation of these 
problems. My question is do you know when we can expect the 
final results of an EPA investigation?
    Ms. Bodine. Congressman, let me take that question. I spoke 
with the regional administrator, Wayne Nastri, about this 
yesterday. I didn't ask your question, and I apologize that I 
didn't and I will ask and get back to you immediately.
    I do know, though, that his staff are working very 
aggressively and diligently on that. In fact, what they are 
working on is coming up not just with an investigation of what 
happened but, even more importantly, what are we going to do to 
take the steps that we know we have to take to restore 
confidence in this system and to restore your confidence and 
the confidence of your constituents. We also know that that is 
a very high bar.
    Mr. Mitchell. You don't know the time?
    Ms. Bodine. I failed to ask that question. I will get back 
to you on that immediately.
    Mr. Mitchell. Thank you.
    The Miller Road water treatment facility which serves the 
North Indian Bend Wash Superfund site in Scottsdale now has had 
two TCE emission episodes in a period of three months. In your 
experience, is this common for Superfund site water treatment 
facilities?
    Ms. Bodine. No, not at all.
    Mr. Mitchell. Are you aware of any other facilities that 
have had multiple episodes such as this in such a short period 
of time?
    Ms. Bodine. No, I am not aware of any other facilities.
    Mr. Mitchell. This is the only one that you have?
    Ms. Bodine. Yes. This situation is one that we haven't 
encountered before and one that we have to be very aggressive 
about addressing.
    Mr. Mitchell. It appears that at least part of the problem 
at the Miller Road treatment facility was due to a blower that 
malfunctioned shortly after the operator left for the day at 
approximately 2:30 p.m. The blower's malfunction was not 
discovered until 6:30 a.m. the following day.
    Does it seem reasonable to you that the blower which is 
responsible for protecting the public drinking water from 
dangerous levels of TCE was left unattended for 16 hours?
    Ms. Bodine. As part of investigating what went wrong and, 
more importantly, looking forward to how to fix it in the 
future, we are going to be looking and the Region 9 staff are 
going to be looking at what needs to be done in the future, 
again to make sure this cannot happen again.
    All alternatives are being looked at, including redundant 
systems, including requirements for monitoring, including 
requirements for operator attendance. They are looking at all 
of that to put together a plan which I will ask them to share 
with you, again, because we know we have to restore the 
confidence of your constituents in this system. And so, we want 
to make sure that our plan meets that standard.
    Mr. Mitchell. I understand that the EPA issued a draft risk 
assessment in 2001 entitled TCE Health Risk Assessment: 
Synthesis and Characterizations. Did the EPA ever take any 
subsequent action on that report?
    Ms. Bodine. The TCE risk assessment was reviewed by the 
National Academy of Sciences, and the NAS issued a report about 
a year ago--I don't remember the exact date_that recommended 
that the Agency use different studies to develop a TCE risk 
number.
    Our Office of Research and Development is looking at that 
matter, and continues to look at that in responding to those 
recommendations. If our Office of Research and Development used 
the data, what the NAS committee was recommending, that would 
result in allowable exposures to TCE that were 70 times higher. 
As you can imagine, they are looking very seriously at that.
    Mr. Mitchell. This report came out in 2001. It is now 2008. 
Was there ever a final version of this report that you know of?
    Ms. Bodine. No.
    Mr. Mitchell. And no final recommendations at all?
    Ms. Bodine. No. That's the issue. It had gone to the 
National Academy, and the National Academy came out with a 
report, and our Office of Research and Development is reviewing 
that and determining how to proceed and how to go forward.
    Mr. Mitchell. When do you expect that to come out?
    Ms. Bodine. I would have to get back to you for the record 
on that and inquire, again, because that work is being done in 
a different office.
    Mr. Mitchell. We are talking about the standards of TCE, 
what is acceptable in water, right?
    Ms. Bodine. No. Oh, no. I'm sorry.
    Ben, do you want to respond?
    Mr. Grumbles. The question about risk assessments and 
ARARs, the research office in the agency has been working on 
TCE. It is relevant to the water office. It is relevant to the 
Superfund office. In the meantime, we have in place a current 
standard for TCE.
    Of course, we want to gather the information, the 
scientific information continuously to look at existing 
contaminant maximum concentration levels to see if they need to 
be revised. So the research office is working on that through 
the risk assessment, updating it.
    Mr. Mitchell. But EPA had done a draft risk assessment, and 
they have done nothing since then. Is that right?
    Mr. Grumbles. Continue to review the issue. It has been 
under review based on the input from the National Academy of 
Sciences, and that work continues.
    Ms. Johnson. The gentleman's time has expired.
    Mr. Mitchell. Thank you, Madam Chair. I will, again, submit 
some other questions
    Ms. Johnson. Mr. Boustany.
    Mr. Boustany. Thank you, Madam Chairman.
    I mentioned at the outset several concerns I had and one 
being the southwest Louisiana study which we completed the 
reconnaissance study, had some additional money for the 
feasibility study, and then in WRDA we have it as expedited or 
it is under the expedited area in WRDA to move forward, and yet 
the fiscal year 2009 budget basically has nothing for this.
    Secretary Woodley, General Van Antwerp, are we ignoring 
this aspect of WRDA or when do you anticipate going forward on 
southwest Louisiana?
    Mr. Woodley. No, sir, we are certainly not ignoring any 
aspect of WRDA.
    The bill was enacted somewhat late in the calendar year, as 
you recall. By that time, our budget is pretty well built, and 
we were able to put a few things in from WRDA that I discussed, 
that we were able to get in. But, generally speaking, we are 
looking for, as we build the 2010 submission to look toward the 
things that were put into WRDA to request funding in that 
process.
    I can ask, if I could, the Chief to respond to the level or 
the current status of the planning efforts for all of south 
Louisiana.
    Mr. Boustany. I appreciate that because that would help us 
in planning to secure the local cost-share funding that is 
going to be necessary to proceed. I have meetings back home 
with local officials and State officials on this, and so I just 
want to make sure we keep the ball rolling on this and don't 
lose the momentum.
    Likewise with the Morganza to the Gulf project, again, if 
you could make sure that we have good contact back and forth as 
to what is going on because this is a massive undertaking, 
recognizing it is going to be multiple years in the works. But 
I want to make sure that we don't lose time needlessly because 
of poor communication going forward. So if you will work with 
my office on these two issues, I would be greatly appreciative.
    On the operations and maintenance part of the budget, I saw 
the $14 million for the Calcasieu Channel which is not quite 
enough to take care of things. I know we have some issues with 
beneficial use of the dredge material we need to work out, but 
I am very concerned about this because we need to keep that 
channel dredged at the fully authorized depth and width because 
of the LNG activity that is anticipated with two new facilities 
under construction and scheduled to go online fairly soon plus 
the expansion of a third.
    I think this is critical beyond just Louisiana, as I 
mentioned earlier, and so again I want to urge that this should 
be a priority to make sure that we have adequate dredging funds 
available and also a plan for the use of that dredge material.
    Mr. Woodley. Yes, sir.
    Mr. Boustany. Thank you.
    We thank you for the $5.761 billion for the levees in New 
Orleans. It is critically important for safety.
    We are concerned about the $1.8 billion that the State is 
going to have to put up in cost share. We are still trying to 
recover from these hurricanes. Do you have any ideas? Short of 
getting that cost-share level changed statutorily, are there 
any other flexibilities that you are prepared to mention today 
that I could bring back home to the State of Louisiana with 
regard to that?
    Mr. Woodley. We will be working very closely with the 
State. I am committed. The law does provide the Secretary a 
pretty wide latitude on exactly when to require payments and, 
while I don't want to set bad precedents anywhere in the 
Country, I will be looking to use those flexibilities and to 
work closely with the State.
    When the Federal Government_well, we feel that there is a 
really strong partnership going on now with the Federal 
Government and the State of Louisiana, and so that is something 
that we are going to foster. You can tell them that to expect 
us to work closely with them, to use our available authorities 
to minimize what we understand is a very heavy burden.
    Mr. Boustany. Thank you, Mr. Secretary. I appreciate that 
and let me again say thank you on behalf of the State of 
Louisiana for the great work that the Corps is doing. It has 
been a very good partnership as we face some significant 
challenges. The Corps officials on the ground have done a 
magnificent job with the resources they have been given, and we 
are certainly appreciative.
    Thank you. I yield back.
    Ms. Johnson. Thank you very much.
    To the Lieutenant General, under the operations and 
maintenance account, the fiscal year 2009 budget is a 2 percent 
of $44 million decrease from fiscal year 2008, and the budget 
provides no detail as to how this operations and maintenance 
will be spent.
    There is a list of systems and the O&M need for the system 
but no detail within the system budget, and this impedes the 
Congress' ability to provide adequate oversight of the budget 
process. Why isn't there some detail as to how this budget will 
be spent?
    General Van Antwerp. Well, ma'am, thank you for the 
question.
    We did divide this into 54 subwatersheds to look at systems 
and look at what would be required. There are efficiencies that 
you gain. For instance, if you have a holding basin upstream, 
you may not need levees downstream. If you have multiple locks 
within that reach or that subwatershed, there could be 
exchanges of parts and other things to keep the system 
operating.
    We do have working documents. We have been in conversation 
with OMB, and the current time we have put this out in broad 
categories of those 54 subwatershed systems.
    Ms. Johnson. Can you provide with detail of that budget for 
each of the systems? I don't mean at this moment.
    Mr. Woodley. I think that as long as we are able to do so 
in a way that is not misleading, we would be delighted to do so 
at the appropriate time.
    Ms. Johnson. Okay. The Committee request a complete and 
detailed O&M budget for fiscal year 2009 including the 
capability of each project. That gives us an idea as to how we 
will proceed with requests as well. Thank you.
    Administrator Bodine, a few weeks ago, the publication, 
Inside EPA, ran an article suggesting that the U.S. Department 
of Defense was again considering a push to limit their 
environmental cleanup and management responsibilities under the 
Superfund law and other environmental statutes.
    As you know, in 2003, the then Administrator of the 
Environmental Protection Agency testified before the Senate of 
her concern with exempting the Department of Defense from 
compliance with the Nation's environmental laws and her belief 
that contrary to the opinion of the Department of Defense, she 
was unaware that these laws had in any way affected military 
readiness.
    The Inside EPA article suggested that instead of statutory 
changes, DOD was pursuing administrative relief from Superfund 
and other environmental statutes. Are you aware of any effort 
by DoD to administratively limit its responsibilities under 
these laws?
    Ms. Bodine. No, Congresswoman, I am not, and I didn't see 
that Inside EPA article either. I certainly would have 
inquired, and I will inquire now.
    Ms. Johnson. What is the position of EPA with respect to 
the DoD statutory responsibilities under the Superfund?
    Ms. Bodine. DoD has extensive responsibilities under 
Superfund. Section 120 of the statute spells those out. When a 
site is on the NPL, we enter into a Federal facility agreement 
with DoD that puts in enforceable requirements on DoD to ensure 
that those responsibilities are carried out.
    Ms. Johnson. Okay. I would request that you ensure that 
this Committee is kept informed of any administrative or 
legislative proposal of DoD to limit its statutory 
responsibilities under the Nation's environmental laws in the 
name of readiness.
    Ms. Bodine. Okay.
    Ms. Johnson. Thank you very much.
    I have to go to the floor, and I am going to ask Ms. Matsui 
if she will take the Chair.
    Ms. Matsui. [Presiding] We will yield time now to Mr. 
Boozman for questions.
    Mr. Boozman. I will yield to Mr. Brown.
    Mr. Brown. Thank you, Ms. Chair.
    Mr. Woodley, in Charleston, we have the Port of Georgetown 
and the Port of Charleston, and I noticed every year we have to 
really negotiate the budget for Georgetown because there is 
never enough appropriated and we have to go back to the 
appropriators to get the money.
    You know all the bad words we have now with earmarks which 
is basically I am having to get earmarks, number one, to keep 
the harbor open at Georgetown. Is there anything that we might 
be able to do particularly in light of the new earmark 
restrictions that we are going to be probably facing?
    Mr. Woodley. Congressman, I will have to look into that and 
get back to you. I certainly hope so because I have been an 
advocate for navigation in South Carolina and along the entire 
Atlantic seaboard and I would hate to see anything done that 
would degrade our capability, given the fact that there is so 
much commerce that is taking place and such an engine of 
prosperity for that region and the Nation as a whole.
    Mr. Brown. I appreciate you doing that because I know I 
have just have the last year, but it has been kind of a 
cumulative thing since I have been a Member of Congress, that 
the Georgetown Harbor last year was actually allocated about $2 
million, but it took $6 million to make it work. So we had to 
go to the appropriators to get the additional $4 million.
    I have a letter from the Corps, not from the Corps but from 
the port, saying that they could focus, they could actually 
send more cargo into the Georgetown Harbor if it was better set 
up to make it work. And so, my question would be if we could be 
a little bit more proactive rather than reactive.
    I know that you have some guidance based on tonnage. I 
believe it is what? Is it a million tons or something? What is 
your cutoff?
    Mr. Woodley. You are correct.
    Mr. Brown. Yes, one million tons for budget navigation 
projects. Who set that number?
    Mr. Woodley. That is a number that is set within the 
Administration. Obviously, it is rather arbitrary, but it is 
intended to give us a dividing line on which we can make 
decisions.
    But I think that we have some ability to look beyond that, 
and I would like to look into Georgetown which is one I have 
not had an opportunity to really study and see what we can do.
    Mr. Brown. Okay. Well, I appreciate that because I think if 
we could focus more shipments into Georgetown, we probably 
could take some transportation off the highways by using barges 
and other mechanisms there.
    Another problem we always deal with every year is the 
deepening of the Intracoastal Waterway, the Atlantic 
Intracoastal Waterway. I know last year about $800,000 was 
appropriated through the budget, and we had to go to the 
appropriators for another $1.3 million.
    I know this year $724,000 is being asked. Just to get back 
to where we were last year is going to require $1.4 million. 
But you know and I know it is probably along the whole 
Intracoastal Waterway. It is probably about $20 million 
deferred maintenance on dredging that to keep it open.
    To give you idea, back to the Georgetown Harbor, this 
year's request is $690,000. You know $690,000 wouldn't hardly 
do anything if there is a $6 million need. I believe it is an 
additional 2.1 this year, but anyway if you could look at that 
because it is a continuing problem.
    Like I said, we are having to use earmarks chargeable to me 
in order to keep that port open and certainly the commerce 
there. We have the steel mill and the paper mill and some other 
items that we need to continue to keep going. If we don't keep 
that harbor open, those industries won't be able to continue. 
So I appreciate your looking into that.
    Mr. Woodley. I apologize. I have been to Georgetown Harbor. 
I know what you are talking about. I am sorry. I just caught it 
to mind. It has been a couple years now, but I will certainly 
look into that. That is a very fine harbor and a very fine 
operation they are running down there, and I would be very 
concerned to learn that we were not able to maintain their 
channels.
    Mr. Brown. Okay, because like I said, in light of the new 
earmark concerns, I am not so sure what kind of flexibility we 
might have in this year's appropriations. Thank you very much.
    Thank you all for being here. Ms. Bodine, good seeing you 
again.
    Ms. Matsui. Mr. Woodley, I thank you very much and, General 
Van Antwerp and all of you, for being here. I want to thank 
you, especially Secretary Woodley, for your kind attention to 
Sacramento. We do have a lot of flood control problems.
    I have a question regarding I am happy that the President's 
budget requested funding for the Joint Federal Project, which 
you know is a joint project between the Corps and the Bureau of 
Reclamation, to capability in fiscal year 2009 of $9 million. 
Now the bureau has already begun excavation, and I believe the 
Corps will be ready for their part of the construction, fiscal 
year 2010. However, this will require a greater commitment of 
funds.
    Now, does your budget reflect the necessary commitments to 
funding for this project in fiscal year 2010 and beyond so 
construction can proceed?
    As you know, we have a target date of completion of about 
2015 and every additional year would add somewhere around 
thirty or forty million dollars to the project, and we would 
like to get this done as quickly as possible.
    Mr. Woodley. Ma'am, I will not be here next year.
    Ms. Matsui. I realize that.
    Mr. Woodley. As long as I am here, that project will have 
the highest priority within the Civil Works of the Corps of 
Engineers that I am capable of giving it.
    Ms. Matsui. Thank you.
    I am looking ahead, though, because I think this is 
something that should be put out there that these projects are 
multi-year. They need to have the capabilities every year.
    I have a question probably for you, Secretary Woodley, and 
maybe General Van Antwerp. I understand the Corps is supportive 
of watershed approaches to flood protection, and I support this 
approach as well. However, as you know, it has been very 
difficult to justify projects within your current rules unless 
there is a favorable benefit to cost ratio, which does not 
adequately take into consideration the value of human life and 
devastating consequences of major catastrophic flooding.
    Oftentimes, nonstructural watershed approach projects don't 
have a BCR because it is not a dam, a levee or a weir. It might 
provide open space for high water events and ecosystem 
restoration, wastewater management, et cetera.
    I would like to see the Corps work on a method of providing 
better tools for analyzing all categories of project benefits, 
not just easily quantifiable ones, so that we can give OMB, you 
and Congress what we need for these types of projects and 
approaches. Are you currently actively working on that?
    Mr. Woodley. I believe that concept is among those 
requirements that are mandated and called for by WRDA 2007, and 
we are indeed actively working on the new set of metrics and 
new analytical tools that will allow us to address the WRDA 
provisions. It will not be easy. It is not a short term effort, 
but I believe we have seen what the Committee has put forth and 
what the Congress has put forth, and we endorse it and are 
going to seek to embrace it.
    Ms. Matsui. Thank you.
    As you know, in Sacramento, we have been on the leading 
edge of levee work. Next to New Orleans, we are the most at-
risk river city. So, therefore, we have been dealing with 
strengthening our levees, and we have been working on this for 
quite a long time, feeling that we have met the standards.
    After Katrina, we are reassessing, obviously. We are on the 
leading edge, and we find out that our levees don't meet the 
so-called standards.
    Now we want, obviously, safety first. That is very 
important to us. However, as we move forward, I think 
nationwide we are going to be finding that this is going to be 
happening across the board.
    Now Congress authorized a new National Levee Safety program 
in WRDA 2007 with annual funding of $20 million, and this 
program is designed to continue the ongoing levee inventory but 
also to create a committee that is to report back to Congress 
within the 180 days with recommendations for a new National 
Levee Safety program and a strategic plan for implementation.
    This budget only provides $10 million for levee inventory. 
Is this adequate to conduct the levee inventory and create the 
committee?
    The justification sheets seem to indicate that the 
committee will be formed but does not indicate that the program 
recommendations will be completed. So, if you would follow up 
on that, is that accurate and why is the Corps not going to 
complete this important policy component in a timely manner?
    I realize this is all wrapped up in a compound question, 
but it is something that we are all concerned about as we move 
forward. We need to get a handle on how we deal with some of 
these levee questions, knowing that there are regional 
differences certainly in California and the Midwest. So, if you 
could just answer, that would be great.
    Mr. Woodley. Yes, ma'am. We were able to address only a 
limited number of the WRDA initiatives in our 2009 submission, 
and that is one of them. We have addressed that in the levee 
inventory line item, and we have begun it at what I would have 
to describe as a low initial level of funding sufficient to 
establish the committee.
    I think the 180-day deadline is probably not going to be 
met.
    Ms. Matsui. Just to follow up, it is just so important as 
we move forward. I think everyone here who has levees is 
worried about the situation, and this is going to be an ongoing 
situation. So I encourage you to look at this and perhaps more 
emphasis on this.
    So, thank you.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Mr. Grumbles, as you know better than any of us, the 
Nation's infrastructure as far as the wastewater, things like 
that, is just wearing out. Many of our communities, I have 
communities that literally it is the same pipes, the same 
whatever that were there when the community started.
    As you all get more aggressive, which you should, in an 
effort to continue to protect the environment and things like 
that, it is really very difficult for them to come up with the 
resources to get things fixed. The Clean Water State Revolving 
Funds, you are proposing that we actually not do what we have 
done in the past even, much less than increase that.
    So I think we are kind of putting these places in a catch-
22 situation. I mean we are getting aggressive. We are asking 
them to do things that they need to do and yet are reluctant to 
help with the funding. Yet, I understand that there is a 
limited amount of funding.
    But many of these, they have exhausted their ability as far 
as municipal bonds. They are trying to do the right thing. They 
go into the open market, and it is so much more expensive. So 
there is a less amount that can be done if they can even do 
that.
    Can you comment on that and kind of give us some guidance 
as far as the agency's thinking?
    Mr. Grumbles. I certainly can, Congressman, and I can tell 
you that one of the Administrator's highest priorities this 
year is to focus in on water and wastewater infrastructure and 
to use technology, innovation and partnerships to have a more 
sustainable approach for the future because, as you point out, 
the needs grow as the pipes get older, the plants age, the 
water quality standards and requirements continue to increase, 
which I think the American public supports and EPA certainly 
does, and also as population pressures increase.
    So the vision for us, that is also part of this budget 
request is to continue to deliver on the commitment of the $6.8 
billion through 2011 for Federal seed money for capitalization 
of those SRFs which continue to grow, but it is also to work 
with our State and local and tribal partners, particularly at 
the utility level, on attributes of effective management.
    What that means is working together using technologies and 
improved, more cost-effective ways to monitor the health of the 
infrastructure which is often out of sight and out of mind, 
these buried assets that are community assets, to be able to 
monitor their replacement and repair and rehab and find more 
cost-effective ways of doing that. Our research office has been 
working on that, and we are committed to it as well.
    It is also coming up with innovative approaches which is 
what the Water Enterprise Bonds are all about. We want to 
increase local choice and opportunity so that if a community 
wants to issue a bond that has substantial involvement by the 
private sector, they are not confronted with a barrier under 
the current U.S. Tax Code. We think that is one important, 
innovative tool to add to the toolbox.
    The other one, though, Congressman, is the more we increase 
the awareness and the importance of water and wastewater 
infrastructure and work with elected officials at the local 
level the more we will continue to see a move towards full cost 
pricing, water rates that reflect the true value of the 
services and the need to invest over time.
    Mr. Boozman. No, and I agree, and I think that is great as 
you go forward with some of the technology and things. It is 
difficult for the communities, the older communities in good 
faith of trying to do things right, and it just costs an awful 
lot of money.
    I guess I am for aggressively doing our best to protect the 
environment and clean things up, but unless we provide 
additional funding with the additional requirements, then 
basically we have an unfunded mandate, and so I would just 
really encourage you all.
    Also, I want to thank all of you. I have worked with all of 
you very closely, and I do appreciate the hard work, and I know 
where your hearts are at in this. Again, we are all struggling. 
We wish that we could just snap our fingers and give you all 
the money you needed, but I do appreciate you.
    I wish you really would look at that and fight for all you 
can get because each year there is a lot of this stuff if you 
let stuff go. Right now there is a lot of stuff, and I see this 
with so many things. You have the ability to fix it now, but if 
you let it go a little longer, then it becomes irreparable and 
then you have to rip it out and then it becomes much more 
expensive.
    So if we can help by giving that encouragement and giving, 
not giving but working with our communities, which you are 
trying to, like I say, it would be much appreciated.
    Ms. Matsui. Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you, Madam Chair.
    I have some questions I think for you, Mr. Woodley or for 
the General. I just want to go over some numbers. I want to 
make sure I have them right, and then I would ask you to help 
me understand them.
    In fiscal year 2007, the Corps budget for the Westhampton 
beach nourishment project, which is a court ordered project, 
was $3.4 million. Pardon me, in fiscal year 2008, that number 
is. In fiscal year 2009, the request is $1.25 million.
    For the west of Shinnecock project, a project designed to 
prevent a breach in the event of a serious nor'easter or a 
serious stuff, the fiscal year 2008 number is $2.5 million. The 
fiscal year 2009 number is $400,000.
    The Fire Island to Montauk Point reformulation study, 
fiscal year 2008, we are budgeting a million dollars. Fiscal 
year 2009, the President's budget requests $500,000.
    So, A, my question is do I have these numbers right, and B, 
if I do have them right, how do you suggest that that shoreline 
be protected in the two areas that are the most vulnerable, the 
Westhampton dune area and the west of Shinnecock area?
    Mr. Woodley. Mr. Bishop, those numbers don't immediately 
correlate to the numbers that I had previous been provided. So 
I am going to have to take the matter you raise for the record 
and get back to you on it to give you the exact numbers on it. 
I thought the figures were somewhat higher.
    Mr. Bishop. Okay. I would appreciate it if you would do 
that.
    Mr. Woodley. I hope they are.
    Mr. Bishop. I hope your memory is correct also because 
these are two very important projects and, as I said at the 
outset, I think the Corps has done great work in our district 
and I would hate to see us backslide because we are not 
providing appropriate resources for the Corps to do its work.
    Mr. Woodley. I am particularly interested in the one where 
we are discharging obligations pursuant to the court.
    Mr. Bishop. The West Hampton dunes beach nourishment 
project, yes.
    Mr. Woodley. I will take your matter for the record if I 
may and get back to you as soon as possible.
    Mr. Bishop. Thank you.
    My second question is for Mr. Grumbles. The history of the 
EPA budget over the course of the Bush Presidency has been an 
unfortunate one. Each year, we lament the fact that the budget 
is cut from the previous year. In my opening statement, I 
cited, for example, the eight-year decline in the Clean Water 
State Revolving Loan Fund.
    I just heard your response to Mr. Boozman's question. It 
continues to seem to me, and I heard you say the State Clean 
Water Revolving Fund is a very high priority for the 
Administrator, but I have a hard time squaring that with a one-
year reduction of almost 20 percent and an eight-year reduction 
of almost 60 percent.
    Also, the other problem that I have is I think we all have 
an obligation to be fiscally responsible. I read in the New 
York Times that Mr. Nussle, the Director of the Office of 
Management and Budget, says that in sheer dollar terms the 
deficit doesn't mean anything. We have had Vice President 
Cheney say that deficits don't matter.
    If those are assertions are correct, if deficits don't 
matter, if the sheer dollar amount of the deficit means 
nothing, why is it that we are not more vigilant about seeing 
to it that the environment receives its fair share of the 
Federal budget?
    I mean the numbers that we are talking about in the context 
of a $3.1 trillion budget are not daunting numbers.
    I guess my question is why is there not the commitment, at 
least in the area of water projects, that I think most 
reasonable people would think that this Nation ought to be 
putting forth, particularly given the fact that we have a 
crumbling infrastructure and particularly given the fact that 
our environment has such an intimate relationship with our 
economic well being?
    Mr. Grumbles. Congressman, our view is that $2.5 billion is 
a substantial and reasonable investment in the context of the 
Federal EPA budget. What we are focused on doing is building 
more sustainable approaches, particularly in the water arena 
that I am familiar with.
    We know that earmarks and unrealistic authorizations are 
not going to get the job done. We know that more needs to be 
done, and it needs to be done through innovative approaches. 
The investments in this budget for infrastructure and for the 
watershed programs and for standards setting will keep us on 
course for making progress, but we know that to accelerate the 
progress, it require innovative approaches.
    State programs continue to mature. They, in most cases, are 
carrying out the Clean Water Act regulatory programs, and so we 
have an oversight responsibility and ensuring that sound 
science is part of that. So we believe that this budget will 
continue to make progress, and we are also committed to using 
new tools.
    Congressman, you have a lot to be proud of in the Long 
Island Sound area, the concept of innovative market-based 
approaches for nutrients, nutrient loadings to the Sound.
    For us, we view the wave of the future is through water 
quality trading.
    We can do more with less, with less Federal taxpayer 
dollars, get more environmental results. The way to do that is 
by working with States and with the private sector and with the 
utilities. It includes using innovative approaches and clean 
water reg permits. That doesn't translate necessarily into an 
increase in our EPA budget, but we think it is going to 
translate into improved environmental results.
    Ms. Matsui. Mr. Bishop, could you submit the rest in 
writing, the rest of the questions?
    Mr. Bishop. I would be happy to.
    Ms. Matsui. Thank you very much.
    Mr. Boustany.
    Mr. Boustany. Thank you, Madam Chair.
    Mr. Grumbles, the EPA's gap analysis assumes that 
municipalities can borrow below market rates. But if they have 
to borrow at market rates to make up for the shortfall in 
available capital in the State Revolving Funds, how much more 
money is it going to take to finance the needed infrastructure 
improvements at market rates?
    Mr. Grumbles. Congressman, the gap analysis laid out 
various assumptions and different approaches to this important 
question. What we found was that over a 20-year period for 
clean water capitalization needs, that if you made an 
assumption of an increase in revenues of 3 percent above 
inflation, that the capital infrastructure gap would be $21 
billion over a 20-year period.
    If you don't assume an increase in the revenues, then it 
would be a higher number, $45 billion. I am sorry. It would be 
a higher number. It would be approximately $270 billion. 
[Subsequent to hearing, edited to read: approximately $122 
billion.]
    So what we recognize in the gap analysis is we need to have 
these pillars of sustainability where we are finding and 
helping find more cost-effective approaches to capitalization 
as well as the maintenance of infrastructure systems.
    We think the Water Enterprise Bonds, now is the time for 
those because there is a willingness in the private sector to 
invest in water and wastewater projects. These are community 
assets. It is a community decision whether or not to have some 
private sector involvement in it.
    And so, what our proposal is to help accelerate the 
progress on narrowing the gap between needs and revenue 
sources. We want to remove the barriers in the tax code to 
investment by the private sector through the use of private 
activity bonds if and only if the community wants to go down 
that road.
    Mr. Boustany. Thank you.
    Secretary Woodley, we are starting to see demand for water 
outstripping supply, and now we are seeing disputes among the 
States both in the eastern part of the Country and the western 
part of the Country. What do you see the role of the Corps 
being in helping to ensure an adequate water supply and working 
through these disputes?
    Mr. Woodley. Congressman, I see the role of the Corps as 
the Federal Government's and, indeed, the Nation's engineer in 
that context.
    I think the Corps of Engineers should support the efforts 
of States to resolve any disputes among themselves with expert 
advice as to what the capabilities are of the currently 
existing infrastructure, how that infrastructure itself and its 
operations can be modified to support the goals of the States 
and the needs of their communities, and what options may exist 
for additional measures, which may run the whole gamut of 
measures from conservation to new construction that can be done 
in an environmentally sustainable way to meet the needs of the 
future.
    I do not, emphatically do not see the Corps of Engineers as 
having a role as a referee among the States or as an arbiter 
among the States or as a determiner of winners and losers in 
water resource negotiations. I would reject any attempt to 
place the Corps of Engineers in that role, but these issues 
cannot be resolved in many cases without the participation of 
the Corps of Engineers along with many other Federal agencies 
in an effort to inform decision-makers of their options and to 
inform them of consequences of various courses of action that 
may be proposed.
    Mr. Boustany. Thank you.
    General Van Antwerp, in looking at the operations and 
maintenance budget request, it is only slightly above what the 
President requested for fiscal year 2008.
    There is concern that expected maintenance may not be met 
and there will be again more deferred maintenance. What do you 
think the dollar amount is at this time for current maintenance 
backlog and is this backlog growing?
    General Van Antwerp. I would say that the backlog is 
growing. I don't have a figure. We can try and pull that 
together.
    What we really looked at is we have emphasized performance 
and we have emphasized criticality to safety and those other 
things. So, for instance, let's take the dams. We are going 
after those high priority dams and the levees, part of the 
levee inventory is to get at those that are most important to 
be done right now.
    There is, I would say, a huge backlog without giving you a 
number, but we are prioritizing that so that we are looking 
definitely at the health and safety and welfare first. We use 
what we call a risk-based approach, and that is how we 
prioritize these projects.
    Mr. Boustany. I think it would be useful for the Committee 
to be able to track that backlog year in and year out and have 
a number that the Corps provides, using some kind of consistent 
methodology because it may give us some insights into how we 
might change the way we are doing things, working with you 
guys.
    So, I thank you, and I yield back.
    Ms. Matsui. Thank you, Mr. Boustany.
    Mr. Hall.
    Mr. Hall. Thank you, Madam Chair, and thanks to all of our 
witnesses. I am grateful for the Corps for many, many things 
especially for your help in the 19th District of New York where 
we have suffered from three 50-year floods in the last four 
years.
    I was in Los Angeles, two weekends ago and was told just 
before I landed that there had been a tornado that touched down 
in Hollywood. This past Tuesday morning, my wife and I were 
awakened in Dover Plains, New York, in upstate northeastern New 
York, by a February 5th thunderstorm. Little did we know that 
later that same evening, storms would hit across several States 
in the South that would kill 50 people at last count.
    With this in mind and with climate change appearing to be 
underway, I wanted to ask Administrator Grumbles about a 
memorandum you issued last March 1st, stating, ``The National 
Water Program and its partners should take prudent steps now to 
assess emerging information, evaluate potential impacts of 
climate change on water programs and identify appropriate 
response actions,'' and laid out a schedule leading to the 
finalization of that strategy in late 2007.
    Could you tell us what is the current state of that 
document? Where is it in the approval and vetting process and 
when can we expect for it to be finalized and published?
    Mr. Grumbles. Thank you, Congressman.
    You are referring to a draft National Water Program Climate 
Change Strategy. I have talked to Chairwoman Napolitano about 
it as well and others.
    It is going through internal review. We are also 
coordinating with other agencies. We recognize that water is 
such a critical component of successfully confronting climate 
change. So, in terms of a timetable, the one that I laid out in 
that memorandum was an aggressive and ambitious one, but I am 
certainly committed to making progress on it.
    I can tell you, Congressman, as folks are reviewing the 
document, we are also thinking of real-time issues that are 
arising. Utilities, wastewater, water utilities, State water 
and drinking water agencies are also giving us their views on 
climate change and the range of issues. I am very pleased with 
the progress we have had so far on draft and getting comments 
on it and look forward to finalizing it in the coming weeks.
    Mr. Hall. Excuse me. I only have a short time. Can you give 
us a guess as to the date when we may see this document?
    Mr. Grumbles. My goal would be to put it out for public 
comment in the coming weeks.
    Mr. Hall. Okay, thank you.
    According to EPA, the Superfund budget request for this 
year is $1.264 billion which is just about flat from last 
year's levels. EPA claims that this will allow them to complete 
remedies at 35 sites even though last year only 24 sites were 
completed in fiscal year 2007 with about the same funding 
levels. How do we expect to do more remediation this year with 
roughly the same resources?
    Ms. Bodine, do you want to answer that?
    Ms. Bodine. Yes. Yes, thank you very much.
    The number of sites that we expect to clean up in 2008 and 
then in 2009 under this budget is up. It is based on where 
sites are in the cleanup process.
    So we have 35 sites that have gone through the study phase 
and the phase for selecting the remedy and designing the 
remedy. So we expect that those sites then will proceed to the 
completion of cleanup, using the resources in the 2009 budget.
    Mr. Hall. Okay.
    Ms. Bodine. So those numbers are based on where the sites 
are.
    Mr. Hall. There are different degrees of effort and scope 
or scale?
    Ms. Bodine. Cleaning up a site is not a one-year process. 
It is a multiple year process. When the construction of a site 
is completed, it is based on all the work that was done in the 
years before, and we identify the number of sites that we 
expect to be cleaned up in a year based on the ones that we see 
coming and moving through the process.
    Mr. Hall. Okay. If I could ask a couple of questions and if 
we don't have time, maybe I could get the answers in writing.
    Ms. Bodine. Sure.
    Mr. Hall. One is does the budget including any funding to 
update the human health standard for TCE? I have a TCE 
Superfund site in my district as well as Mr. Mitchell does in 
his.
    Ms. Bodine. Right.
    Mr. Hall. How does the ready for anticipated use differ 
from construction complete, the tradition measure of a 
Superfund cleanup?
    If at the end of fiscal year 2009 you expect roughly 100 
construction completes but only 64 ready for anticipated use 
sites, what do we make of the protective measures of the 
remaining 1,000 NPL sites?
    That is a lot of questions in a row but if you could.
    Ms. Bodine. On the amount of the Office of Research and 
Development budget that is going towards the TCE risk number, I 
would have to ask them to answer that for the record.
    On the ready for anticipated use measure that we have that 
is under the Superfund program, I would dispute that 
construction completion should be considered the traditional 
measure of Superfund progress. It is an interim measure. It 
means that the construction of the remedy is complete, but it 
doesn't mean that we have met all of the cleanup standards and 
it doesn't meant that we have controls in place.
    If you have cleaned up to one level, when it is 
residential, then you don't need controls. But if you have a 
commercial or industrial cleanup standard, you have to put 
controls in place to make sure that the property is only used 
for those purposes, and that is how you ensure long term 
protectiveness.
    So, the ready for reuse measure then goes beyond 
construction complete and makes sure that the land is ready for 
reuse and that the institutional controls are in place.
    The low numbers that you were citing do not reflect this. 
We are doing much. We are doing well with this. Because it was 
a new measure, we had a target of 30. We are doing very well 
with it.
    The issue that this measure is intended to address is the 
fact that we haven't done a good job in the past of getting our 
institutional controls in place, and we are aggressively going 
after that issue, and this measure is a way for us to put 
management attention and management pressure on that issue.
    Mr. Hall. Thank you. I will ask more questions in writing.
    I yield back.
    Ms. Bodine. Thank you.
    Mr. Kagen. [Presiding.] Mr. Boustany, do you have any other 
questions?
    Mr. Boustany. No, I don't.
    Mr. Kagen. In that case, having no questions, I will 
recognize myself. Thank you for coming before us.
    I think I am the next in order unless you would like to go 
first, Mrs. Napolitano. You can start the clock now.
    It is interesting that where I come from in the real world, 
there is a lot of teamwork where we identify a common goal, a 
common problem and we work together to try and solve that 
problem, and I have to admire the EPA and the Corps for working 
together as a team.
    What I am astonished about as a newcomer to this place is 
that the President of the United States would sign an executive 
order, making certain that everyone understands he values and 
treasures the quality of the water of the Great Lakes, and yet 
he doesn't invest in his budget proposal in cleaning up those 
Great Lakes. So allow me to ask you a question.
    Are you aware that cleaning up the hot spots in the Great 
Lakes will have a very beneficial effect on businesses and on 
human health, Mr. Grumbles? It is a yes or no.
    Mr. Grumbles. Congressman, there is a half a billion 
dollars investment in the Great Lakes. I would just say that 
there is a recognition that the Great Lakes are a treasure and 
it is important for the Federal Government to invest. So there 
is an investment in this budget as in previous budgets.
    On the areas of concern----
    Mr. Kagen. Let me interrupt because in the Great Lakes 
Legacy Act, you wanted to spend $34 million or $35 million 
dollars, and yet appropriated was an amount of $50 million. So 
there is a disconnect between what you say you are for and what 
you are willing to spend your money on.
    Where I come from in Wisconsin, it is really a reflection 
of your values as to how you spend your money. So maybe you can 
explain to me why there is a difference of $35 million to $50 
million or $54 million.
    Mr. Grumbles. Congressman, we have consistently requested 
more funding for the Great Lakes Legacy Act than has been 
appropriated by Congress. The $50 million that you are 
referring to is the authorized level.
    We have, in the past, sought full funding. Right now, what 
we are focused on is requesting $35 million.
    We share your view that investing in the accelerated 
cleanup of those hot spots brings environmental and economic 
progress. So we are committed to working with the Congress on 
that, and that is a priority, one of the priority areas for the 
EPA when it comes to the Great Lakes.
    Mr. Kagen. Mr. Grumbles, are you aware that the water 
levels of Lake Michigan and Lake Superior appear to be 
declining rather rapidly?
    Mr. Grumbles. I have heard about that. I understand that 
that is an area of concern, a growing concern.
    Mr. Kagen. In your budget, how much money have you budgeted 
for study that issue?
    Mr. Grumbles. EPA takes very seriously our proper roles and 
responsibilities under the law, whether it is WRDA or the Clean 
Water Act. So we, as an agency, do not get in water quantity or 
water allocation or water levels for the Great Lakes.
    We do have in our budget request, $22 million for the Great 
Lakes National Program Office who partners with other agencies 
that are studying lake levels and effects, climate-related or 
other effects.
    Mr. Kagen. Let me direct that question to the Army Corps.
    General Van Antwerp. Well, Congressman, as we look at the 
budget from 2008 to 2009 and get into details--and this 
concerns dredging primarily--it was $92 million in 2008, $89 
million in 2009 but more dredging in 2009.
    There are non-dredging items in there to include studies of 
water quality and quantity and different ports and their 
subsistence levels and all of that. So there is more dredging 
in the 2009 budget than there was in the 2008 for the Great 
Lakes.
    Mr. Kagen. I appreciate that.
    In April of this year, I believe on April 18th, we are 
going to have a field hearing, a Congressional hearing in Green 
Bay, and I look forward to hearing in greater detail and 
greater length your testimony and findings as to what your 
reasoning might be for the decline in water level in Lake 
Michigan and Lake Superior. We will take a look at that.
    Which of your agencies is primarily responsible for 
eliminating the invasive species that now predominate the Great 
Lakes, Mr. Grumbles?
    Mr. Grumbles. One of the priority issues for the taskforce 
that the President set up in the executive order in May of 
2004, the interagency taskforce which EPA chairs, one of the 
priority issues is invasive species. We have a role. Army Corps 
of Engineers has a significant role in it, as Mr. Woodley can 
testify to.
    Mr. Kagen. Are you able to give me a dollar amount as to 
what you have requested in funding to study and remediate the 
invasive species issue?
    Mr. Grumbles. I think the question should be posed also to 
the Coast Guard and to NOAA and to USGS.
    In terms of the EPA, we have as part of that $22 million. I 
am just saying as part of that $22 million for the Great Lakes 
National Program Office, we are working on invasive species, 
the rapid response plans that we have developed. But we are not 
the primary agency in terms of either regulatory or funding for 
invasives, but it is a priority issue, Congressman.
    Mr. Kagen. I look forward to covering that in some detail 
on April 18th in Green Bay, Wisconsin.
    I yield my time.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. I didn't mean to cut 
you off. I thought you were going to close the meeting, and I 
still have many questions. I will submit them for the record.
    But first, I want to tell my colleagues that EPA and the 
Army Corps have been great supporters in the California area 
that I represent. I have worked extensively on many projects, 
and I really thank for the support that we have been getting 
whether it is in my Subcommittee or in dealing with you.
    I have questions that I am going to have for the record but 
more importantly, as I was listening to the answer to Ms. 
Matsui's question in regard to the Federal Government, the 
Department of Defense limiting the environmental law under the 
Superfund, I have a Superfund site in my area in the tank farm 
that has JP4 and JP5 operated by the Air Force with 
subcontracting to Kinder Morgan. It has been under cleanup for 
many years.
    Now, as I am finding, I think it is more than just us in 
California. The Department of Defense is probably going to sell 
off properties without finishing the cleanup.
    That sets a lot of questions in my mind about whether or 
not the developer that is going to be purchasing that property 
will be able to do it to the extent that is required or find 
additional contaminants that might then cause that project to 
fold and then it goes back to the community as a generation of 
funds for the general fund and, of course, the contaminations 
in those areas.
    So I am going to put a question in writing to both the EPA 
and to the Army Corps, and we have talked extensively with EPA 
on the water quality.
    The other questions have to do with the Army Corps on the 
Whittier Narrows Dam which is a high risk designation. There 
are issues there again that it is owned and operated by the 
Corps on the San Gabriel River. It is kind of a holding of 
runoff so it doesn't go into the ocean.
    Apparently, in the past, there had been a question as to 
whether or not they could raise the amount of water because it 
surrounded by communities all around it, raise the amount of 
water it could hold. But because there were oil rigs in the 
area, oil operations, they were concerned that it would flood 
those wells.
    Now they are gone. The wells are no longer operable, and so 
we are asking the Corps to take a look at being able to 
increase the captivity of that runoff to be able to provide 
more water for the settling ponds to go into the aquifers. That 
is another one.
    Let's see. I would like to sit down and work and possibly 
get a commitment on being able to work on that as soon as 
possible since we are into the rainy season and being able to 
capture as much of that rainwater for the benefit of that whole 
area.
    In my mind, I am hearing you talk about invasive species up 
in the Great Lakes. We have invasive species in Texas in the 
canals. We have invasive species in many other areas.
    We need to ensure that whatever your findings are, that 
those invasive species, that you find how to address them, how 
to be able to go in, what is the research and development 
coming up with because those are taking up a lot of the water. 
We need to understand that if we don't take proactive steps, we 
are going to be in a world of hurt. We need all the water we 
can get.
    Another question for Mr. Grumbles. In the U.S.-Mexico 
border infrastructure, apparently, there are a lot of issues 
with the U.S. and Mexico with treated drinking water. Both 
sides are affected, especially with the wastewater. The 
untreated sewage flows from Mexico into the U.S. basically, and 
so the issues are health issues.
    There is $209 million in unspent funds that have been 
obligated to the water infrastructure projects remaining in 
NADBank. The Administration is cutting significant funding from 
its Mexico border water infrastructure assistance program due 
to the program's slow rate of project development over the last 
10 years.
    What agency in the Federal Government has responsibility to 
ensure that the border infrastructure funding of $209 million 
is spent promptly, prudently and effectively and why has this 
large amount of money not been allowed to be utilized or why 
has it gone unspent?
    Then what agency in the Federal Government has 
responsibility to ensure that the project development does not 
occur at a slow rate and, given the needs of both borders, why 
has the project taken such a long time?
    And there you have it, five minutes worth of questions.
    Mr. Grumbles. I will go first.
    On the invasive species front, you are absolutely right. It 
is a growing national challenge, environmentally and 
economically, and there is growing investment in the solutions.
    Prevention and detection and rapid response are the keys. 
Ballast water, we are working with the other agencies on cost-
effective treatment technologies and different types of 
response regimes, and the Coast Guard is a key component of 
that.
    We know that it is various and different types of species. 
In the Great Lakes, for instance, it is 160 new species that 
are in the Great Lakes, non-native invasive species.
    On the U.S.-Mexico border, the border environmental 
infrastructure----
    Mr. Kagen. Mr. Grumbles, let me interrupt. Could you please 
answer her in writing for us in the interest of time?
    Mr. Grumbles. Yes, sir. Yes, sir.
    Mrs. Napolitano. Don't worry. I'll be in touch. Thank you.
    Mr. Kagen. I now recognize my good friend, Gene Taylor.
    Mr. Taylor. Thank you, Mr. Chairman, and I apologize for 
the inconvenience to Mrs. Napolitano.
    Mr. Woodley, how much money is in the President's budget 
request for the mandatory buy-out of properties for people 
whose homes were either destroyed or damaged during Hurricane 
Katrina? The key word there is mandatory.
    Mr. Woodley. I heard that word. I don't know of any money 
in the President's budget for that purpose.
    Mr. Taylor. Could I get that in writing from you?
    Mr. Woodley. Yes, sir.
    Mr. Taylor. The reason I say that is I am glad this meeting 
is now and not last fall because I have had about six weeks to 
calm down.
    When the word appeared in the local newspapers in south 
Mississippi to folks who had lost their homes, been screwed by 
their insurance companies, borrowed to the hilt to rebuild 
their homes, that the Corps of Engineers was going to come take 
their houses away, you can imagine the reaction. It came to the 
Corps' words versus mine.
    Again, so I am normally, 99 percent of the time, a huge fan 
of the Corps, but I cannot begin to tell you how poorly your 
agency handled that entire situation. Just as a word of advice 
to other Corps employees, again folks who know they have a job 
a year from now, don't ever make that mistake again.
    I am sure that people went to the hospital over this. They 
were so upset.
    You normally do, your agency normally does better. They 
handled that very poorly. I will say it as politely as I can. 
Six weeks ago, I wouldn't have been so polite.
    The second thing, recently, one of the counties affected by 
Hurricane Katrina that had chosen to do its own debris removal 
and, more specifically, take care of what were called hangers 
and leaners. These are the trees that died as a result of the 
storm. They were still hanging on and they were leaning over 
rights of way for roads. They were a public safety menace and, 
therefore, removed.
    There was a problem with FEMA reimbursing those counties. 
We had asked the Corps that had the responsibilities for some 
coastal counties for that exact same problem, that they had 
contractors to do the exact same thing, to release those 
numbers. How much did they pay for this exact same procedure so 
that this county could justify their expenditures to FEMA? The 
Corps refused to release those numbers.
    Now I am on the Armed Services Committee. I can get the 
cost of a cruise missile. I can get the cost of a next 
generation of aircraft carriers. Why on Earth should something 
as simple as debris removal be considered proprietary 
information?
    That is silly, and it caused a great deal of heartburn to 
the largest county in my Congressional district. Again, it is 
just uncalled for, and you need to do better.
    The third thing is a continual frustration with the Corps 
on the desire of south Mississippi to do beneficial use with 
our dredge material. We lost a heck of a lot of coastal marshes 
during the storm. We lost large portions of our barrier 
islands.
    The Corps has several publicly maintained channels, 
Federally maintained channels that have periodic dredging and 
periodic need to dispose of that material, and yet it seems 
like every time I am not looking. I will be driving around 
south Mississippi. I will see a dredge. I will see a discharge, 
and there is open water disposal when you have all these needs 
that are going unmet.
    Again, it shouldn't take the local Congressman hounding the 
local Corps office. It if is the policy of this Nation, it 
ought to be the policy of this Nation every time and not just 
when I am looking.
    Again, I would very much request in writing an answer to 
the first. I would like to hear your answer for the second and 
third because, again, I am a big fan of the Corps. I defend you 
at my public meetings, but those three actions aren't 
defendable.
    So let's start with why did anyone in your agency think it 
should be proprietary information to embargo the cost per cubic 
yard of moving debris or removing dead trees?
    Mr. Woodley. The answer, I don't know the answer to that 
question.
    Mr. Taylor. We contacted your agency. We gave your agency a 
number of opportunities to answer that question.
    The contractor, who did the work, gladly gave us the 
information. The last guy we thought would give it to us gave 
it to us.
    The question is that is public money. That ought to be 
publicly available. Again, it should have been a no-brainer.
    The third one, okay, beneficial use of dredge material.
    Mr. Woodley. We support the beneficial use of dredge 
material. Unless there is some cost issue associated with where 
the concept of beneficially using it is cost-prohibitive, then 
I would say we should be using it in every case. There is a 
cost issue involved, so we would have to look at each 
individual situation.
    Mr. Taylor. Mr. Secretary, if I may, this goes back at 
least six years where I have even been asking for the 
designation of sites ahead of time, working with the State of 
Mississippi which owns all the bottom lands. This will be our 
site when we dredge this channel. This is going to be our site 
when we dredge this channel.
    Six years later, those negotiations haven't taken place. I 
mean in the General's aid, I have great respect for the 
General, but this is what the Army calls a slow roll. I think I 
am going to outlive the folks who are slow-rolling me, but I 
shouldn't have to.
    Mr. Woodley. Let me just ask. Are these observations in the 
portion of your district that is managed by the Mobile 
District?
    Mr. Taylor. Yes, sir.
    Mr. Woodley. Thank you.
    Mr. Taylor. Okay. Again, the sooner you can get me the 
letter about no mandatory buy-outs, today would not be too 
soon. Thank you very much.
    Mr. Woodley. Yes, sir.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Kagen. Very good.
    I just had one more question for both agencies. If you 
could please provide the Committee with the report on your 
existing personnel and who is ready to retire and how you are 
planning to replace those people, we would certainly appreciate 
it, so we can understand your needs a little bit better.
    Any other questions at all?
    There being no other questions, I will ask for an 
adjournment. How does that sound?
    Thank you very much for being here.
    [Whereupon, at 4:15 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0695.009
    
    [GRAPHIC] [TIFF OMITTED] T0695.010
    
    [GRAPHIC] [TIFF OMITTED] T0695.011
    
    [GRAPHIC] [TIFF OMITTED] T0695.012
    
    [GRAPHIC] [TIFF OMITTED] T0695.013
    
    [GRAPHIC] [TIFF OMITTED] T0695.014
    
    [GRAPHIC] [TIFF OMITTED] T0695.015
    
    [GRAPHIC] [TIFF OMITTED] T0695.016
    
    [GRAPHIC] [TIFF OMITTED] T0695.017
    
    [GRAPHIC] [TIFF OMITTED] T0695.018
    
    [GRAPHIC] [TIFF OMITTED] T0695.019
    
    [GRAPHIC] [TIFF OMITTED] T0695.020
    
    [GRAPHIC] [TIFF OMITTED] T0695.021
    
    [GRAPHIC] [TIFF OMITTED] T0695.022
    
    [GRAPHIC] [TIFF OMITTED] T0695.023
    
    [GRAPHIC] [TIFF OMITTED] T0695.024
    
    [GRAPHIC] [TIFF OMITTED] T0695.025
    
    [GRAPHIC] [TIFF OMITTED] T0695.026
    
    [GRAPHIC] [TIFF OMITTED] T0695.027
    
    [GRAPHIC] [TIFF OMITTED] T0695.028
    
    [GRAPHIC] [TIFF OMITTED] T0695.029
    
    [GRAPHIC] [TIFF OMITTED] T0695.030
    
    [GRAPHIC] [TIFF OMITTED] T0695.031
    
    [GRAPHIC] [TIFF OMITTED] T0695.032
    
    [GRAPHIC] [TIFF OMITTED] T0695.033
    
    [GRAPHIC] [TIFF OMITTED] T0695.034
    
    [GRAPHIC] [TIFF OMITTED] T0695.035
    
    [GRAPHIC] [TIFF OMITTED] T0695.036
    
    [GRAPHIC] [TIFF OMITTED] T0695.037
    
    [GRAPHIC] [TIFF OMITTED] T0695.038
    
    [GRAPHIC] [TIFF OMITTED] T0695.039
    
    [GRAPHIC] [TIFF OMITTED] T0695.040
    
    [GRAPHIC] [TIFF OMITTED] T0695.041
    
    [GRAPHIC] [TIFF OMITTED] T0695.042
    
    [GRAPHIC] [TIFF OMITTED] T0695.043
    
    [GRAPHIC] [TIFF OMITTED] T0695.044
    
    [GRAPHIC] [TIFF OMITTED] T0695.045
    
    [GRAPHIC] [TIFF OMITTED] T0695.046
    
    [GRAPHIC] [TIFF OMITTED] T0695.047
    
    [GRAPHIC] [TIFF OMITTED] T0695.048
    
    [GRAPHIC] [TIFF OMITTED] T0695.049
    
    [GRAPHIC] [TIFF OMITTED] T0695.050
    
    [GRAPHIC] [TIFF OMITTED] T0695.051
    
    [GRAPHIC] [TIFF OMITTED] T0695.052
    
    [GRAPHIC] [TIFF OMITTED] T0695.053
    
    [GRAPHIC] [TIFF OMITTED] T0695.054
    
    [GRAPHIC] [TIFF OMITTED] T0695.055
    
    [GRAPHIC] [TIFF OMITTED] T0695.056
    
    [GRAPHIC] [TIFF OMITTED] T0695.057
    
    [GRAPHIC] [TIFF OMITTED] T0695.058
    
    [GRAPHIC] [TIFF OMITTED] T0695.059
    
    [GRAPHIC] [TIFF OMITTED] T0695.060
    
    [GRAPHIC] [TIFF OMITTED] T0695.061
    
    [GRAPHIC] [TIFF OMITTED] T0695.062
    
    [GRAPHIC] [TIFF OMITTED] T0695.063
    
    [GRAPHIC] [TIFF OMITTED] T0695.064
    
    [GRAPHIC] [TIFF OMITTED] T0695.065
    
    [GRAPHIC] [TIFF OMITTED] T0695.066
    
    [GRAPHIC] [TIFF OMITTED] T0695.067
    
    [GRAPHIC] [TIFF OMITTED] T0695.068
    
    [GRAPHIC] [TIFF OMITTED] T0695.069
    
    [GRAPHIC] [TIFF OMITTED] T0695.070
    
    [GRAPHIC] [TIFF OMITTED] T0695.071
    
    [GRAPHIC] [TIFF OMITTED] T0695.072
    
    [GRAPHIC] [TIFF OMITTED] T0695.073
    
    [GRAPHIC] [TIFF OMITTED] T0695.074
    
    [GRAPHIC] [TIFF OMITTED] T0695.075
    
    [GRAPHIC] [TIFF OMITTED] T0695.076
    
    [GRAPHIC] [TIFF OMITTED] T0695.077
    
    [GRAPHIC] [TIFF OMITTED] T0695.078
    
    [GRAPHIC] [TIFF OMITTED] T0695.079
    
    [GRAPHIC] [TIFF OMITTED] T0695.080
    
    [GRAPHIC] [TIFF OMITTED] T0695.081
    
    [GRAPHIC] [TIFF OMITTED] T0695.082
    
    [GRAPHIC] [TIFF OMITTED] T0695.083
    
    [GRAPHIC] [TIFF OMITTED] T0695.084
    
    [GRAPHIC] [TIFF OMITTED] T0695.085
    
    [GRAPHIC] [TIFF OMITTED] T0695.086
    
    [GRAPHIC] [TIFF OMITTED] T0695.087
    
    [GRAPHIC] [TIFF OMITTED] T0695.088
    
    [GRAPHIC] [TIFF OMITTED] T0695.089
    
    [GRAPHIC] [TIFF OMITTED] T0695.090
    
    [GRAPHIC] [TIFF OMITTED] T0695.091
    
    [GRAPHIC] [TIFF OMITTED] T0695.092
    
    [GRAPHIC] [TIFF OMITTED] T0695.093
    
    [GRAPHIC] [TIFF OMITTED] T0695.094
    
    [GRAPHIC] [TIFF OMITTED] T0695.095
    
    [GRAPHIC] [TIFF OMITTED] T0695.096
    
    [GRAPHIC] [TIFF OMITTED] T0695.097
    
    [GRAPHIC] [TIFF OMITTED] T0695.098
    
    [GRAPHIC] [TIFF OMITTED] T0695.099
    
    [GRAPHIC] [TIFF OMITTED] T0695.100
    
    [GRAPHIC] [TIFF OMITTED] T0695.101
    
    [GRAPHIC] [TIFF OMITTED] T0695.102
    
    [GRAPHIC] [TIFF OMITTED] T0695.103
    
    [GRAPHIC] [TIFF OMITTED] T0695.104
    
    [GRAPHIC] [TIFF OMITTED] T0695.105
    
    [GRAPHIC] [TIFF OMITTED] T0695.106
    
    [GRAPHIC] [TIFF OMITTED] T0695.107
    
    [GRAPHIC] [TIFF OMITTED] T0695.108
    
    [GRAPHIC] [TIFF OMITTED] T0695.109
    
    [GRAPHIC] [TIFF OMITTED] T0695.110
    
    [GRAPHIC] [TIFF OMITTED] T0695.111
    
    [GRAPHIC] [TIFF OMITTED] T0695.112
    
    [GRAPHIC] [TIFF OMITTED] T0695.113
    
    [GRAPHIC] [TIFF OMITTED] T0695.114
    
    [GRAPHIC] [TIFF OMITTED] T0695.115
    
    [GRAPHIC] [TIFF OMITTED] T0695.116
    
    [GRAPHIC] [TIFF OMITTED] T0695.117
    
    [GRAPHIC] [TIFF OMITTED] T0695.118
    
    [GRAPHIC] [TIFF OMITTED] T0695.119
    
    [GRAPHIC] [TIFF OMITTED] T0695.120
    
                                    

</pre></body></html>
